<html>
<title> - TO REVIEW THE FEDERAL GOVERNMENT'S INITIATIVES REGARDING CHILD NUTRITION PROGRAMS</title>
<body><pre>[Senate Hearing 108-088]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-088

                   TO REVIEW THE FEDERAL GOVERNMENT'S
             INITIATIVES REGARDING CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


                               __________

                             APRIL 3, 2003

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

88-866              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  THAD COCHRAN, Mississippi, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
PAT ROBERTS, Kansas                  KENT CONRAD, North Dakota
PETER G. FITZGERALD, Illinois        THOMAS A. DASCHLE, South Dakota
SAXBY CHAMBLISS, Georgia             MAX BAUCUS, Montana
NORM COLEMAN, Minnesota              BLANCHE L. LINCOLN, Arkansas
MICHEAL D. CRAPO, Idaho              ZELL MILLER, Georgia
JAMES M. TALENT, Missouri            DEBBIE A. STABENOW, Michigan
ELIZABETH DOLE, North Carolina       E. BENJAMIN NELSON, Nebraska
CHARLES E. GRASSLEY, Iowa            MARK DAYTON, Minnesota

                 Hunt Shipman, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majortiy General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Review the Federal Government's Initiatives Regarding Child 
  Nutrition Programs.............................................    01

                              ----------                              

                        Thursday, April 3, 2003
                    STATEMENTS PRESENTED BY SENATORS

Cochran, Hon. Thad, a U.S. Senator from Mississippi, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Dayton, Hon. Mark, a U.S. Senator from Minnesota.................    37
    Leahy, Hon. Patrick, a U.S. Senator from Vermont.............    29
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    43
Lugar, Hon. Richard G., a U.S. Senator from Indiana..............    25
                              ----------                              

                               WITNESSES

Bost, Eric, Under Secretary, Food, Nutrition, and Consumer 
  Services, United States Department of Agriculture, Washington, 
  DC.............................................................    02

                                Panel I

Besharov, Douglas, Joseph J. and Violet Jacobs Scholar in Social 
  Welfare Studies, American Enterprise Institute, and Professor, 
  University of 
  Maryland School of Public Affairs, Washington, DC..............    19
Weill, James, President, Food Research and Action Center, 
  Washington, DC.................................................    14

                                Panel II

Caplan, Karen, Frieda, Inc., Los Alamitos, California, on behalf 
  of the United Fresh Fruit and Vegetable Association............    35
Curry, Anne, Vice President, Legislative and Political Affairs, 
  Food Marketing Institute, Washington, DC.......................    33
Hofstedt, Rod, Executive Director, Adult and Children's Alliance, 
  St. Paul, Minnesota, on behalf of the National Child and Adult 
  Care Food Program Forum........................................    38
Leppert, Jill, President, National WIC Association, Bismark, 
  North Dakota...................................................    31
Wambles, Don, President, National Association of Farmers Market 
  Nutrition Programs, Montgomery, Alabama........................    39
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    54
    Besharov, Douglas............................................   103
    Bost, Eric...................................................    61
    Caplan, Karen................................................   125
    Curry, Anne..................................................   121
    Hofstedt, Rod................................................   139
    Leahy, Hon. Patrick..........................................    59
    Leppert, Jill................................................   112
    Lugar, Hon. Richard..........................................    58
    Stabenow, Hon. Debbie........................................    50
    Wambles, Don.................................................   146
    Weill, James.................................................    78
Document(s) Submitted for the Record:
    American Dietetic Association................................   242
    Apple Processors Association, Paul S. Weller, Jr., President.   229
    Beckman, Rev. David, President, Bread for the World..........   152
    Fallon, Sally, President, The Weston A. Price Foundation.....   215
    Food Marketing Institute (FMI), News.........................   166
    Food Marketing Institute (FMI), Your Neighborhood 
      Supermarkets...............................................   169
    Hauter, Wenonah, Director Public Citizen's Critical Mass 
      Energy and Environment Program.............................   231
    National Law Center on Homelessness and Poverty, Susan 
      Fallon, Staff Attorney.....................................   225
    National WIC Association-2003 WIC Reauthorization Agenda.....   159
    Society for Nutrition Education (SNE)........................   235
    Society for Nutrition Education (SNE), Platform/Policy 
      Statement on the Federal Child Nutrition Reauthorization of 
      2003.......................................................   237
    United-Child Nutrition Policy Recommendations................   211
    United-Fresh Produce and Child Nutrition Programs............   212
    United-National Alliance for Nutrition and Activity..........   179
    United-News Release..........................................   213
    United-State of California Health and Human Services Agency..   195
Question and Answer:
    Harkin, Hon. Tom (no answers provided).......................   248
    Leahy, Hon. Patrick (no answers provided)....................   249


 
    TO REVIEW THE FEDERAL GOVERNMENT'S INITIATIVES REGARDING CHILD 
                           NUTRITION PROGRAMS

                              ----------                              


                        THURSDAY, APRIL 3, 2003

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:13 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Thad 
Cochran, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Cochran, Lugar, 
Harkin, Leahy, Conrad, Lincoln, Stabenow, and Dayton.

      STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM 
MISSISSIPPI, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. The committee will please come to order. 
Today, our Committee on Agriculture is having its second 
hearing on the re-authorization of the Child Nutrition Act and 
the National School Lunch Act. At our first hearing on March 4, 
we reviewed the National School Lunch and School Breakfast 
Programs. Today, we will hear from witnesses who will discuss 
the Special Supplemental Nutrition Program for Women, Infants, 
and Children, the Summer Food Service Program, the Child and 
Adult Care Food Program, and the Farmers' Market Nutrition 
Program.
    As we all know, good nutrition is very important to good 
health. These programs we are reviewing will help ensure that 
our nation's children and others have access to a nutritious 
diet.
    The Federal Government supports over a dozen child 
nutrition programs and other activities which benefit more than 
37 million children and almost two million lower-income 
pregnant and post-partum women.
    I am going to put the balance of my statement discussing 
these programs and the funding requests that we have received 
and level of funding for the program in the record so we can 
move right along to hear from our witnesses.
    The Chairman. We are going to hear from three panels of 
witnesses today. Senator Kohl, who has taken a special interest 
in these programs, had planned to be here today. We had 
scheduled this hearing for another day and then we had to 
change the date, and because of this late change, he was not 
able to rearrange his schedule and I regret that.
    Also, Senator Coleman wanted to be here to welcome Mr. 
Hofstedt from Minnesota, but he is chairing a Foreign Relations 
Committee hearing.
    We know there are some other things going on in the Senate 
today. On the floor, we have an appropriations bill, as you 
probably know, pending and under consideration by the Senate. 
We may have votes and I may have to go to the floor during the 
conduct of this hearing and I hope you will understand that it 
is not because we think anything else has a higher priority, 
but we have to do what we must, I guess.
    We are pleased to begin the hearing today with testimony 
from Mr. Eric Bost, who is Under Secretary of Food, Nutrition, 
and Consumer Services at the Department of Agriculture. We have 
other witnesses, as I indicated, and I will introduce them at 
the appropriate time.
    Thank you all for your assistance and for the preparation 
of the statements that we have in advance. We will make all 
these statements a part of the record in full and we encourage 
you to make whatever summary comments you think would be 
helpful to our understanding of these programs.
    Mr. Bost, you may proceed.

        STATEMENT OF ERIC BOST, UNDER SECRETARY, FOOD, 
        NUTRITION, AND CONSUMER SERVICES, UNITED STATES 
           DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Bost. Good morning, Mr. Chairman. For the record, I am 
Eric Bost, Under Secretary for Food, Nutrition, and Consumer 
Services at the United States Department of Agriculture. I am 
really happy and pleased to be here today to talk about the 
administration's recommendations for the re-authorization of 
these programs.
    You have my written testimony, and so I just want to 
provide some highlights of the recommendations that we want to 
propose that we think will go a long way in terms of addressing 
the needs of children in this country.
    The opportunity to make a difference in children's lives is 
evident and our responsibility, we believe, is clear. We also 
know that we can't do it alone. That is why last spring, Deputy 
Under Secretary Suzanne Biermann and I conducted listening 
sessions around the country. We have listened to parents, 
providers, school administrators, students, WIC participants 
who came and told us what they think about our programs, what 
they like, and what they would change. Through this process, we 
have gained important insights to shape our proposal.
    We have established three guiding principles essential to 
the proposal we bring to you today. One, access to program 
benefits for all eligible children. Two, support for healthy 
school environments to address the epidemic of overweight and 
obesity among our children. Three, commitment to program 
integrity to ensure the best possible targeting of program 
benefits to eligible children.
    Let's talk about the recommendations. Let's talk about 
ensuring program access. In our commitment to ensure program 
access, we propose, first, to consolidate the school meals 
programs into one program, the School Nutrition Program. 
Streamlining operations would allow States to operate under one 
State administrative office, offer a full array of meals under 
one set of rules and provide meals to children 365 days a year.
    Second, increase the regular free and reduced-price 
breakfast rates to the severe need rate for all schools 
participating in the program. This rate increases supports and 
offers expansion for the critical yet under-utilized school 
breakfast program.
    Next, we propose to expand the 14-State pilot project, 
often referred to as the Lugar Pilot. This program increases 
participation in the summer feeding program by reducing 
administrative paperwork, which encourages schools and other 
agencies to support the program.
    Fourth, exclude the military housing allowance to improve 
access for those families who make the ultimate sacrifice for 
our country.
    Finally, streamline the application process for both 
families and schools by requiring a single application per 
household and providing for a year-long certification.
    One of the issues that we are really addressing in this 
country right now is the prevalence of overweight and obesity 
among America's youth, which is an issue we believe that we 
must address. The percentage of young people who are overweight 
has doubled in the last 20 years for children ages six to 11 
and almost tripled for adolescents age 12 to 19. Health 
problems associated with obesity cost America over $117 
billion, directly related to significant medical issues, for 
example, Type II diabetes among children.
    We also know why we have this problem. The reasons are 
clear and, to some extent, uncomplicated, and something that my 
father used to tell me when I was a kid growing up. If you eat 
too much, and if you eat too much of the wrong thing, and if 
you get too little physical exercise, you will be overweight 
and you are at risk of being obese. It is something that is 
easy to talk about, but much more difficult and complex to 
address.
    We also know that there are significant environmental 
influences at work: The availability of sugary, high-fat foods, 
the movement away from sports and exercise toward TV and 
computer screen watching, the lack of strong programs of 
nutrition education and physical education in many schools. It 
is also real important to note, I believe, that we all bear 
responsibility for this problem and that we all have a very 
important role to play.
    For example, parents need to model eating behavior and 
physical behavior. Currently, six of ten adults are overweight, 
too. I am also reminded of the saying that my parents used to 
talk about, do what I say, not what I do, and that is what we 
have been talking about. Parents must guide the choices of 
their children when they are too young to make informed choices 
alone. Families and communities can make healthy eating and 
exercise shared activities. One of the programs that is going 
on in Denver is a prime example of that.
    Teachers can find ways to build nutrition and physical 
education into their curriculum, and school administrators can 
work toward a healthy school environment. The media can help by 
providing nutrition and physical activity promotion messages at 
times that reach children and their caregivers.
    Of course, why we are here today, the Federal Nutrition 
Assistance Programs also have a very essential role to play.
    Some things that we are currently doing as part of the 
President's HealthierUS initiative, we promote the ``Eat Smart, 
Play Hard'' campaign to motivate healthy eating and more 
physical activity. We promote healthy eating right from the 
start through our breast feeding promotion and support 
activities as a part of our WIC program. We are expanding and 
improving program-based nutrition education and other services. 
We promote the eating of fresh fruits and vegetables, which I 
truly believe is very, very important. Also, we are working in 
concert with the Department of Health and Human Services and 
the Department of Education.
    We also believe that we must do more. As a part of the 
re-authorization, we propose to support expanded funding for 
delivery of nutrition messages and materials; require schools 
to offer low-fat milk as a beverage option for school meals; 
seek authority to continue the fruit and vegetable pilots 
through the end of school year 2005, and finally, establish a 
healthy school environment that supports the President's 
HealthierUS and Leave No Child Behind initiatives.
    Along those lines, and let me elaborate, the administration 
proposes a multi-departmental implementation of HealthierUS in 
schools through demonstration projects. School districts will 
be asked to volunteer for the demonstration projects and will 
be provided financial and other incentives to implement one or 
more of the keystones or principles of HealthierUS. One, eat a 
nutritious diet. Two, be physically active each day. Three, get 
preventive screenings. Four, make healthy choices.
    Incentives will be attached to each keystone or principle 
and a special HealthierUS designation will recognize those 
schools that are able to implement all four, but they don't 
have to be all four. They can do one or a combination thereof. 
This is a coordinated effort between us and the Department of 
Education and Health and Human Services.
    It is also real important that there is an evaluation 
component to this so that we can make a determination if what 
we are proposing actually works. We are also hopeful that to 
earn a HealthierUS nutrition incentive, schools would serve 
program meals that meet the Federal nutrition standards; offer 
healthy food options in vending machines, school stores, and a 
la carte meals; promote the consumption of fruits and 
vegetables; and deliver nutrition education.
    It is a leadership role, a very supportive role, a proper 
role for government to give good nutrition a fighting chance by 
providing financial support to local schools that take action 
to promote children's health. Our responsibility demands 
action. This action is real and is important and it supports 
local decisionmaking. It is outcome-driven and results-
oriented.
    Through leadership and support in partnership with the 
school districts, local schools, teachers, administrators, and 
parents, we take a step to improve the school environment 
through these incentive-based demonstration projects that 
include an evaluation component that lets policy be guided by 
outcomes.
    Another issue that I believe is also very important is food 
safety. Food safety is an integral and essential part of a 
healthy school environment that this administration supports. 
We recommend requiring school food authorities to employ HACCP, 
which is Hazard Analysis Critical Control Points, procedures in 
the preparation of school meals.
    The National Food Service Management Institute at the 
University of Mississippi is a key resource for food safety 
materials, education, and training for food service personnel 
in our nutrition programs. The Institute recently created a 
network of instructors to train these employees in the 
principles of HACCP, and they have also developed a manual and 
teleconferences as resource for food service managers 
responding to food recalls or emergency readiness.
    Hunger and obesity, most people wonder how can you talk 
about those in the same sentence? However, I want to be very 
clear that the epidemic of obesity does not mean that we have 
won the war on hunger in this country. In fact, although there 
has been talk about Federal nutrition assistance programs that 
are in some way responsible for obesity, we have seen no 
evidence to support this contention.
    Instead, we know that less than 5 percent of families are 
enrolled in all four of our major nutrition programs--that is 
food stamps, school lunch, school breakfast, and WIC. We know 
that 52 percent participate in only one program. Research 
indicates that 3.5 million households report that they didn't 
have enough food for their family sometime during the year 
because they couldn't afford it, and we know that obesity 
affects Americans of all income levels, all racial and ethnic 
groups, and all ages. In other words, we know that hunger and 
obesity coexist in this country.
    However, we do appreciate the focus of many on the 
prevalence of obesity, and it is something that is very 
important that we need to address. We also say we appreciate 
any data and research that is brought to our attention so that 
we can look at making informed decisions to address both of 
these issues.
    For these reasons and for the health and well-being of 
Americans, especially our children, we will continue our 
efforts to make a difference in the lives of Americans who 
suffer from both hunger and obesity.
    I would be remiss if I didn't talk about something that is 
very important, not only to the President but also to the 
Secretary and to me personally, and that is this issue of 
program integrity. We cannot really succeed in our efforts 
without ensuring effective and efficient management of our 
resources. It is important to us not only from a management 
perspective, but also in our role as public stewards.
    As you know, we have a problem with the accuracy of 
certification in the National School Lunch Program. While we do 
not know the exact scope of the problem, we do know that we 
have a problem and that the problem appears to be getting 
worse. This is important not only because improper 
certifications create a risk that nutritional assistance 
benefits are not getting to those who are eligible, but also 
because our school lunch certification data are used to 
distribute billions of other dollars in Federal, State, and 
local education aid.
    I also want to be very clear in terms of the two guiding 
principles that I established in terms of addressing this 
issue. First and foremost, that we would not do anything that 
we believe would result in eligible children being deterred or 
prevented from participating in our program and two, that would 
result in any undue administrative burden in our schools. Those 
were the two guiding principles that I have established.
    With that in mind, to address this issue, there are some 
recommendations that I would like to put forth. One, require 
direct certification for free meals through the food stamp 
program. This will increase access to eligible children, reduce 
the application burden for families and schools, and improve 
accuracy in the certification process.
    Two, enhance verification of the paper-based application 
process by drawing the samples earlier in the year and both 
increasing and expanding the sample of both random and error-
prone applications.
    Three, minimize any barriers that may result from an 
enhanced verification process by requiring a more robust 
consistent followup for those who do not respond.
    Four, provide funding for schools to support the new 
enhanced administrative efforts, and we should not, nor would I 
recommend that these expanded efforts be placed in the hands of 
already overburdened food service workers.
    Five--no, just four. I will save the fifth one just in 
case.
    [Laughter.]
    Mr. Bost. Let's talk about what these recommendations do. 
They include strong steps that we can take to begin to improve 
the process. I also believe they establish a plan to continue 
research and demonstration efforts so that the improvements can 
continue. They protect eligible children and ensure their 
ability to participate in the program. They streamline the 
application and certification process, and provide 
administrative funds to help schools get us there.
    Let's talk about WIC for just a few minutes. I would be 
remiss if I didn't talk about this program that we believe is 
very important. WIC is also up for re-authorization. The 
President has been very clear regarding his commitment to this 
vital program by requesting unprecedented levels of funding for 
WIC. Currently, over 7.6 million at risk, low-income women and 
their young children are served in this program every month.
    As part of the administration's re-authorization package, 
we propose increased budget authority for WIC management 
information systems development and support, expanded 
availability of breast feeding counselors, and establishment of 
a pilot project to determine how WIC can help prevent childhood 
obesity.
    I believe I have talked long enough. Mr. Chairman, I 
appreciate the commitment and longstanding support of you and 
other members of this committee. The administration supports 
other improvements in the Child Nutrition Program if funding is 
available in accordance with the President's 2004 budget. These 
improvements would focus on the themes that I have outlined 
today.
    I truly look forward to working with you and all of the 
committee members to address the issues that we face, and 
again, thank you so very much for all the work that you have 
done in this area and I also thank you for this opportunity to 
present the administration's proposals. I would be happy to 
answer any questions that you may have of me at this time. 
Thank you so very much.
    [The prepared statement of Mr. Bost can be found in the 
appendix on page 61.]
    The Chairman. Mr. Secretary, thank you for your 
presentation and for your statement of proposals that you 
submit. I am pleased that you have made some specific proposals 
to improve the efficiency of our school food programs and to 
make them even better than they are today and to be sure that 
we reach all children who are eligible. I noticed that that was 
one of the highest priorities of the Food, Nutrition, and 
Consumer Services Office of the Department of Agriculture. You 
particularly pointed out on page four, ``We are interested in 
expanding access to the other programs that we administer with 
a special focus on the summer food service program,'' and you 
mention that as one of your top priorities, as well.
    Tell me how you expect to make these improvements and 
expand the benefits that are available to those who are 
eligible without increasing the costs of the program.
    Mr. Bost. There are a couple of ways, Mr. Chairman. Let's 
start with the recommendations that I made regarding direct 
certification. We believe if we will implement the process of 
direct certification, that essentially it will add eligible 
children that will be a part of the National School Lunch 
Program and not preclude any children from participating.
    In addition to that, we have received some very positive 
feedback regarding the pilots that are a part of the Lugar 
Pilot that streamlines our programs, and with the 
implementation of the recommendation that we have made to 
implement that countrywide, we will go a long way toward 
streamlining our processes, making it easier for sponsors to 
come into the program and their ability to add children to 
receive services.
    In addition to that and most specifically regarding our 
summer eating program, we have done a great deal of work with 
our advocacy partners in terms of working in concert with them 
to, one, get the word out, two, to recruit additional sponsors, 
and to ensure that we increase the number of children that are 
participating in our summer eating program.
    It is not just us. I believe that there is a concerted 
effort with us, our advocacy partners, faith-based 
institutions, and schools to increase the number of children 
participating in our summer eating program, and so those are 
some of the steps that we are recommending. They also speak to 
some of the things that we have done in the past to address 
this issue.
    The Chairman. When the hearing began, there was one Senator 
who had even gotten here before I did, the Senator from 
Michigan. I am going to recognize Ms. Stabenow for any 
questions you have or statement you would like to make, 
Senator.
    Senator Stabenow. Thank you very much, Mr. Chairman. First, 
I do have a full statement I would just ask be submitted for 
the record.
    [The prepared statement of Senator Stabenow can be found in 
the appendix on page 50.]
    Senator Stabenow. I want to welcome all of the folks who 
will be testifying today as witnesses. I appreciate your work 
and your dedication to these issues and I do notice that we 
also have Jill Leppert, President of the National WIC 
Association. We are pleased to have her, and also Karen Caplan 
who is here on behalf of the United Fresh Fruit and Vegetable 
Association. I am really pleased to have you here representing 
a very important part of this discussion.
    Speaking of fresh fruits and vegetables for a moment, Mr. 
Bost, if I might, I know that you recently hosted a conference 
in Indianapolis----
    Mr. Bost. Yes.
    Senator Stabenow [continuing]. I was pleased to be a part 
of that through a video greeting. I know that you brought 
together people to talk about the fruit and vegetable pilot 
projects that are very, very successful in Michigan. We are 
getting a lot of wonderful feedback.
    I wonder if you might speak a little bit about the fruit 
and vegetable pilot program and what you heard from people at 
your conference.
    Mr. Bost. Senator Stabenow, it was one of the happiest 
conferences I have had the opportunity of attending. Everybody 
was so happy.
    [Laughter.]
    Senator Stabenow. It is because they are eating so many 
good fruits and vegetables.
    Mr. Bost. Well, maybe. I don't know. They were just really 
happy.
    We have received so much positive feedback regarding the 
pilot that is in four States, an Indian reservation, and 100 
schools. We received positive feedback from students, from 
teachers, from administrators about how much the kids are 
really enjoying it, and that is why we are proposing that, one, 
that we be able to--that we get the authority to continue it, 
because there are still funds currently available, and that we 
look at extending that pilot into a couple of additional 
States, I believe into 2005 and 2006.
    In addition to that, the research branch in USDA will be 
doing an evaluation of that pilot and we should receive some 
information from them, I believe, in May. Before that, the 
anecdotal information that we receive from the participants 
that were at the conference and all of the very positive press 
that we have received and feedback that we receive from 
students has just been overwhelming, and that is why we believe 
that we should continue it.
    The last thing that I would say, too, as we address this 
issue of our children dealing with being overweight and obese, 
one of the things that I always talk about is that one of the 
most important components of being able to address that issue 
is increased consumption of fresh fruits and vegetables. 
Because of that, I believe it is very important and very 
critical as we look at putting all of the things that we want 
to do into a package of addressing this issue, that that be a 
very important component of it.
    Senator Stabenow. Thank you. If I might ask one other 
question, Mr. Chairman, in looking at your streamlined school 
meal program, I am impressed with your proposals to do that, 
that would allow schools to provide meals 365 days a year 
without having to manage three or four different programs. I am 
wondering about the other programs. You talked about the summer 
program, which is very important.
    Mr. Bost. Yes.
    Senator Stabenow. What about the summer food programs, the 
other child care programs and so on that are administered by 
groups other than schools? Does your proposal include them?
    Mr. Bost. Well, Senator Stabenow, maybe and maybe not. We 
wanted to look at starting with streamlining all of our 
programs that are essentially operated by the schools, and in 
some instances, there are going to be opportunities for private 
providers and/or faith-based organizations to be a part of 
this. We wanted to start with the school because essentially 
that is where most of our children are receiving services.
    I want to say that there are going to be some limited 
opportunities for us to look at expanding that to other 
providers. It wasn't first on my list. I thought I needed to 
look at being strategic in terms of getting the best bang for 
my dollar in terms of being able to meet the needs of the 
highest number of kids and then we will look at that as a 
second possibility.
    Senator Stabenow. We also know that when schools are 
providing food in the park rather than the cafeteria, there are 
increased costs related to that that I hope that you will look 
at as we look at reimbursement.
    I would just thank you, Mr. Chairman, and thank my 
colleagues for including in the budget resolution a statement 
on behalf of all of us that we don't want to see these programs 
cut. I know we didn't ask the question about what would happen 
if the House proposals passed, we know that we would not be 
here talking about the possibility of increasing programs, so I 
appreciate my colleagues making that statement in our budget 
resolution and I am looking forward to working with you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Stabenow.
    Mr. Bost. I wanted to thank you, Senator Stabenow, too. 
During my confirmation hearing, you had asked me about 
asparagus, I hope!
    Senator Stabenow. Yes.
    [Laughter.]
    Mr. Bost [continuing]. I wanted to tell you that I do talk 
about asparagus.
    Senator Stabenow. Good.
    [Laughter.]
    Senator Stabenow. Michigan asparagus, I hope.
    Mr. Bost. I didn't say I ate them, but I do talk about it.
    [Laughter.]
    Senator Stabenow. Well, we actually have guacamole now made 
out of asparagus. I am going to send you some.
    Mr. Bost. No, I have had some, Senator Stabenow.
    [Laughter.]
    Mr. Bost. I do want you to know, because during my 
confirmation hearing, you specifically asked me about 
asparagus----
    Senator Stabenow. I did----
    Mr. Bost [continuing]. I wanted to give you some feedback 
because I haven't really seen you since then, that we do talk 
about it as part of a healthy, balanced meal and having good 
choices.
    Senator Stabenow. Good.
    Mr. Bost. For some people.
    [Laughter.]
    Senator Stabenow. I should say that we want children to try 
this wonderful vegetable, and they may like it if they try it. 
Thank you, Mr. Chairman.
    The Chairman. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman, and I 
will just ask that my full statement be made a part of the 
record in its entirety.
    The Chairman. Without objection, it is so ordered.
    Senator Harkin. Thank you.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 54.]
    Senator Harkin. Welcome again, Mr. Bost, to this committee.
    Mr. Bost. Thank you, Senator Harkin.
    Senator Harkin. I am sorry I am a little late getting here.
    Just two things. I want to followup a little bit on the 
fruits and vegetables, but first, the proposal that you are 
making for integrating all of these school-based programs into 
one kind of a program is intriguing. I don't know that I feel 
positive or negative one way or the other. I want to see some 
of the details. Do you have any idea when you will have some of 
those details for us?
    Mr. Bost. Senator, if I can, we are currently working on 
it, but it is one of the things that we heard from a 
significant number of school people as we traveled the country 
in terms of getting ready to put our programs together, and 
essentially will make it easier to operate our programs, and we 
are always looking for something that is going to address and 
reduce the administrative and paperwork burden on our schools, 
and this is one of the things that we feel really good about. 
We are working on the details, but we feel that this is a home 
run in terms of us being able to work with the schools of 
addressing concerns that they have brought to us since I have 
been Under Secretary about all of the paperwork and the burdens 
that they have to deal with.
    Senator Harkin. Please allay my fears. This is not an 
attempt to do a block grant, is it?
    Mr. Bost. No, not at all.
    Senator Harkin. All right. I just wanted to make sure we 
got that on the record.
    Mr. Bost. Sure.
    Senator Harkin. All right. Thank you, Mr. Bost.
    Mr. Bost. You are welcome.
    Senator Harkin. Now, let us get to the fresh fruits and 
vegetables. Four States now have it, Iowa, Michigan, Ohio, and 
Indiana. Senator Stabenow is correct and you are, too. All of 
the feedback that we have from this has just been extremely 
positive. In fact, what I am hearing back, and I don't have 
much information from the Indian tribe, it is in New Mexico. I 
don't have much----
    Mr. Bost. The Zuni Tribe, yes. They love it, too.
    Senator Harkin. Is that right?
    Mr. Bost. Yes, sir.
    Senator Harkin. That is the one thing that I haven't gotten 
information on.
    Mr. Bost. We have received very positive feedback from 
them, also, so much that they personally talked with me about 
being able to extend the program, too.
    Senator Harkin. That is the biggest question I get, is will 
we have this next year, since it is only a 1-year program.
    Mr. Bost. Well, Senator Harkin, the first thing that I 
would ask is that it was $6 million appropriated to do it for 1 
year and it ends June 30.
    Senator Harkin. Right.
    Mr. Bost. The schools have not expended all of the money, 
so the first thing is----
    Senator Harkin. Because a lot of them didn't start until 
late in November or something.
    Mr. Bost. Right. The first question on the table is 
providing us with the authority to continue it. That is the 
first thing, because we don't have the authority to do that 
because it ends June 30 unless we get the additional authority. 
That is the first thing.
    The second part of that is that I am proposing the 
opportunity to continue it for a couple more years and to 
expand it into a couple of additional States.
    Senator Harkin. Well, that is my question. I like that 
idea, but are you going to ask for some more money to do this 
or are you going to try to pull it out of that $6 million pool?
    Mr. Bost. No. We believe that in terms of some efficiencies 
that we are putting in place in the operation of the entire 
program, that we will have some money available to run it 
without taking money away from the--taking money out of the $6 
million or asking for additional funds to do it.
    Senator Harkin. I would like to know the secret of how you 
make that kind of money. That is interesting. You are not going 
to ask for any more money?
    Mr. Bost. No.
    Senator Harkin. You are not going to take anything away 
from the States that already have it?
    Mr. Bost. No.
    [Laughter.]
    Senator Harkin. Magic man.
    Mr. Bost. Well, Senator Harkin, I thought that would make 
you happy.
    Senator Harkin. That is great. If you can expand it and do 
that, more power to you.
    Mr. Bost. Well, I mean, we can't expand it to all 50 
States, of course----
    Senator Harkin. No, I understand that, but----
    Mr. Bost [continuing]. We were looking at expanding it to--
--
    Senator Harkin. A couple of States?
    Mr. Bost. About three, two or three more States and to some 
schools in that for a couple more years.
    Senator Harkin. Good. Thank you, Mr. Chairman. Thank you, 
Mr. Bost.
    Mr. Bost. Thank you, Senator Harkin.
    The Chairman. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I want to commend, too, my colleagues who 
are here. I want to thank Senator Harkin for his leadership in 
fresh fruit and vegetables program. I would very much welcome 
the program being extended to my State.
    [Laughter.]
    Senator Conrad. Mississippi would be a good State, and 
then----
    [Laughter.]
    Senator Conrad. North Dakota would be a good State. Could 
we reach agreement on that this morning, Mr. Under Secretary?
    Mr. Bost. Senator, interestingly enough, I thought about 
how we would go about choosing the States, given the fact that 
we would only be selecting a couple, and I put on the table for 
my staff to give consideration to a report released every year 
by several magazines that lists the chubbiest States, and I 
thought maybe that would be a good start, but my staff said 
they didn't think that was fair and so they came up with some 
competitive process that States would actually compete, and so 
to make it fair.
    Senator Conrad. Could we just declare the competition over?
    [Laughter.]
    Mr. Bost. Well, that----
    Senator Conrad. Put Mississippi and North Dakota on your 
list?
    Mr. Bost. If that is something that the Chairman could 
include in the legislation, of course, we would abide by that.
    [Laughter.]
    Senator Conrad. That is an awfully good idea, Mr. Chairman.
    [Laughter.]
    Senator Conrad. I am glad that you had it.
    Let me say, I have been looking over your proposals, and I 
find some of them have the potential to be really good ideas. 
Obviously, it depends on how it is implemented, but requiring a 
single application per household, providing for year-long 
certification----
    Mr. Bost. Yes.
    Senator Conrad [continuing]. The current certification 
method, which requires that eligibility must be re-determined 
whenever a household reports a change in income, is overly 
burdensome.
    I also want to commend you for proposing demonstration 
projects to identify better certification methods. These ideas 
have the potential to improve the school lunch program.
    Also, I am very pleased that Jill Leppert, who is from 
Bismark, North Dakota, and is the President of the National WIC 
Association, is with us. She will be on a later panel. I am 
delighted she is here. She is very highly respected in our 
State, and by the fact that she holds this national position 
indicates that she is respected across the country, as well.
    The child nutrition programs are so vitally important 
because many of our families are now in households where both 
parents work. When both parents work, providing good nutritious 
meals to kids becomes even more of a challenge. As I look at 
children's health statistics, especially the increases in the 
obesity rate, I am alarmed.
    When both parents are working, meals are caught on the fly. 
This pushes people toward fast food and away from the way we 
ate when we were growing up, which was families around the 
dining room table together, at breakfast and at lunch. When I 
was growing up, I was home every day for lunch, and ate fresh 
fruit and vegetables. We ate in a very nutritious way.
    I see fewer healthy habits now. In fact, I am around young 
people, and their eating habits really stun me. They are 
appallingly bad, and it is part of this fast-moving society. To 
the extent that we can have healthy programs in the schools, we 
are going to help a lot of people lead healthier lives. That 
should be the focus of effort and energy.
    We are in the middle of the budget debate. I was at the 
conference committee yesterday, and I am very concerned about 
the House budget proposal. It includes about a 5-percent cut of 
$6 billion to the child nutrition program. In my State, that 
would translate into a $14 million cut. Fourteen-million 
dollars in North Dakota is a lot of money. That is a huge 
amount of money.
    I wanted to know, Mr. Under Secretary, what is the position 
of the administration on the House proposal? Do you oppose 
these cuts? Do you support the cuts? What is the position of 
the administration on the House budget proposal?
    Mr. Bost. Senator Conrad, very clearly, I am in absolute 
support of the President's budget presented to the House, I 
believe, about 2 weeks ago that essentially would serve up to 
7.8 million persons in our WIC program every month. That is a 
$43 million increase over fiscal year 2003. That includes a 
$150 million contingency fund. That includes $20 million for 
breast feeding and $5 million to look at preventing childhood 
obesity. In our food stamp programs, there is a contingency 
fund of $2 billion, which is about $1.4 billion over last year. 
In the Child Nutrition Programs as a part of the President's 
budget request, we would be able to serve a million more 
children per year during lunch and also a million more children 
per year during breakfast.
    The issue for me is that is something that Congress is 
addressing and dealing with. I am in support of the President's 
budget. I truly believe that it will go a long way toward 
addressing the needs, the nutritional needs, of children and 
families in this country.
    In addition to that, it is premature for me to speculate, 
because I am sure after you all, the House and the Senate, do 
what you are going to do, then you are going to come to me and 
then talk about what you think my recommendations are based on 
what you give me. Right now, the issue for me here today is to 
tell you that I am in absolute support of the President's 
budget because it will go a long way toward addressing what I 
believe our issues are right now.
    Senator Conrad. I take from that, although you have not 
used the words, that you oppose the cuts included in the House 
bill because they were not included in the President's budget.
    Mr. Bost. What I would say----
    Senator Conrad. Would that be a correct interpretation?
    Mr. Bost. Well, what would be a better interpretation, 
Senator Conrad, is that I am in support of the President's 
budget.
    [Laughter.]
    Senator Conrad. How about the Senate budget?
    Mr. Bost. I don't even know if I have seen the Senate--I 
don't think I have seen it. I don't think I've seen the Senate 
budget. I can't respond, because I don't think I have seen it 
all.
    Senator Conrad. OK. Well, I would urge you to take a look 
at the Senate's budget. It does not include the cuts proposed 
by the House. I really think the House has made a bad mistake 
with respect to what they have proposed. It is very important 
that the cuts are restored in the conference committee, and I 
hope that the Administration will send that signal. You have 
sent it here today. I hope others who might be listening will 
send that signal, as well.
    Let me just conclude there, Mr. Chairman, and I thank you.
    The Chairman. Thank you, Senator.
    One thing about this budget to remember is that it is a 
process that is strictly under the purview of the Congress, and 
you are correct in the way you have responded to that issue. 
The President has an obligation under law to submit a budget 
request to Congress each year. He has done that. Then separate 
and apart from the President's budget, Congress has an 
opportunity to express its views on what the budget ought to 
be, and we do that through a separate process.
    I don't remember ever Congress agreeing with the President 
on the budget--[Laughter.]
    --and vice versa. It is a political experience for all of 
us, or it has come to be more political than policy, more 
politics than policy in the budget process. That is not a fault 
of our current committee members, who have important roles in 
that budget process.
    Thank you for being here. You have started off the hearing 
today, in fine style, giving us your views about how these 
programs can be improved and even expanded and operated more 
efficiently. We appreciate your leadership. Thank you for 
coming before the committee.
    Mr. Bost. Thank you, Mr. Chairman. I would like to thank 
you and also members of the committee, and I really look 
forward to working with you as we continue on this road. Thank 
you so very much.
    The Chairman. Our next panel will consist of two 
distinguished gentlemen who will be witnesses expressing views 
on the programs under consideration by the committee today. Mr. 
James Weill is President of the Food Research and Action Center 
here in Washington, DC, and Mr. Douglas Besharov, who is a 
Scholar in Social Welfare Studies at the American Enterprise 
Institute and is a professor at the University of Maryland 
School of Public Affairs.
    Welcome, gentlemen. We appreciate your accepting our 
invitation to appear as witnesses at this hearing. We have the 
statements that you have submitted to the committee, which we 
thank you for, and we would ask you to make summary comments, 
if you would, and that will give us an opportunity to ask you 
questions about your testimony and your thoughts about these 
programs and how they may be improved.
    Mr. Weill, we will start with you.

 STATEMENT OF JAMES WEILL, PRESIDENT, FOOD RESEARCH AND ACTION 
                     CENTER, WASHINGTON, DC

    Mr. Weill. Thank you, Mr. Chairman. We thank you and the 
committee for giving us the opportunity to testify today.
    The Food Research and Action Center is a nonprofit 
research, public education, and policy organization that 
focuses on nutrition programs. We also co-chair the Child 
Nutrition Forum, which is a large coalition of health, 
education, child care, anti-hunger, business, labor, and 
nutrition groups.
    This committee has a long history of effective bipartisan 
work on the child nutrition and food stamp programs. You, Mr. 
Chairman, and Senators Harkin, Lugar, Leahy, Stabenow, and 
other members of this committee, have provided leadership to 
protect and strengthen those programs. We look forward to 
working with you to produce the best possible re-authorization 
bill. We also look forward to continuing to work with Under 
Secretary Bost and his team, who have done good work to boost 
participation in the summer food, food stamp, and other 
programs.
    Good nutrition is essential to the physical, emotional, 
developmental, and educational well-being of children, but it 
is also critical to the strength and economic well-being of 
families, communities, and the nation. Indeed, in 1946, 
Congress passed the School Lunch Act as ``a measure of national 
security, to safeguard the health and well-being of the 
nation's children, and to encourage the domestic consumption of 
nutritious agricultural commodities.''
    A well-conceived re-authorization bill will help the Nation 
reach many important goals, not just reducing childhood hunger, 
but improving child health, enhancing the development of very 
young children, improving the quality of child care, 
strengthening rural communities, improving the achievement of 
children in school, and providing safe havens for them in out-
of-school time, and providing critical help to the working 
poor.
    We also are hearing and seeing more and more reports in the 
last few weeks of families of those reservists who are being 
called up turning to the school lunch program, food stamps, and 
other nutrition programs to get them through the period of 
lower incomes that they are suffering. Strong nutrition 
programs help these families, too.
    That is why we are so distressed that the House budget 
resolution cuts child nutrition programs and food stamps by 
more than $18 billion. As has been said here today, such cuts 
would cause great harm, and we are very pleased that the Senate 
passed a resolution opposing those cuts.
    Even very strong programs as these are must always be 
adapted to new realities. One such reality is the growing 
number of low-income parents who are working longer hours or 
non-traditional shifts, often evening and night shifts. The 
need for the community-based programs that I am going to be 
talking about--care for preschoolers, before-school care in the 
morning, after-school care that runs into the evening, and 
summer activities--has become far greater, and so has the need 
to improve the nutrition programs to better feed children in 
those hours.
    Similarly, the growing incidence of childhood obesity needs 
to be addressed in this re-authorization. Helping programs 
obtain more fruit and vegetables is one solution. Getting more 
children access to the nutrition programs is another. A range 
of studies show that when children participate in the federally 
funded programs, in school breakfast, in lunch, in child care 
food and WIC, they eat more healthfully than children who do 
not. They eat better than children who bring food from home in 
brown bags, or eat at home or don't eat at all.
    Now, some have suggested that the nutrition programs 
provide too much food and contribute to obesity in that way. 
All the actual evidence is to the contrary. Certainly, the food 
choices that some schools and programs make could be improved, 
but most school meals meet nutrient goals. Schools have 
successfully reduced fat content substantially over the last 
decade. The number of calories provided by schools falls well 
within accepted nutrition guidelines. Kids who eat school meals 
have better diets than those who don't, and meals in the 
nutrition programs are just about the only examples we have 
today of proper portion sizes that are encountered by children.
    Obesity is not a result of poor families or schools or 
community programs having too many resources for too much food. 
Indeed, emerging evidence suggests that for many poor people, 
hunger and food insecurity, the lack of adequate resources, 
combine with obesity and are tied together. Obesity can be an 
adaptive response to hunger, for example, when poor people are 
unable to consistently get enough food to eat throughout the 
month, so they eat more than they normally would during the 
periods that food is available.
    Moreover, poor families often face limited food choices and 
considerably higher prices in their neighborhoods. For low-
income people, resource constraints, not too much in resources, 
are contributing to obesity.
    Congress could help by increasing program resources to make 
it more feasible to purchase better foods, as well as by 
limiting the availability in schools of less-healthy food from 
other sources, food that competes with the better nutrition 
available in the Federal programs. Providing more resources for 
nutrition counseling would also help.
    After-school and summer food dollars, by their very 
existence, contribute to reducing obesity by helping to expand 
and improve programs which keep children active and engaged in 
out-of-school hours, rather than sitting at home in front of 
the television. Nineteen out of every 20 summer food programs 
are connected to some recreational or other activity.
    I also want to discuss very briefly Under Secretary Bost's 
testimony on over-certification. We appreciate that he wants to 
adopt positive strategies, such as direct certification, 
although we believe that direct certification could be 
broadened further than he has proposed, and we appreciate that 
he has indicated that the actual extent of any over-
certification problem is unknown, that early estimates that 
were tossed around in the press were way off the mark.
    Since we know that past verification efforts have kept two 
to three eligible children out of the lunch program for every 
ineligible child, the greatest possible caution is called for. 
We appreciate that Secretary Bost plans to followup 
aggressively with non-responders, people who don't respond 
initially to new verification initiatives. The bottom line is 
that the expansion of verification poses some risks to eligible 
children. Those risks are serious, precisely because so many 
non-responders turn out to be eligible or get lost in the paper 
shuffle.
    The best strategy here is to adopt some good pilots, some 
scientifically based pilots, rather than new national rules and 
to test both the extent of the problem and new strategies.
    I want to turn briefly now to those changes that we are 
urging Congress to make to improve access to the programs. Our 
written testimony goes into considerable detail on these 
proposals and I won't go into that detail, but I want to touch 
very briefly here on our six highest priorities.
    First is making the summer food rule, the so-called Lugar 
Summer Food Rule, apply nationwide to all sponsors. The pilot 
program that was initially, proposed by Senator Lugar to 
improve the summer food program by simplifying cost accounting 
requirements for the public sponsors of that program has 
worked. In the first year of the pilot 2001, participation 
increased by almost 9 percent in the 13 States involved in the 
pilot, while it decreased in the rest of the nation.
    Senators Lugar and Harkin's proposal to make the rule 
national was in the Senate's fiscal year 2004 appropriations 
bill. It was dropped in conference, and one of the reasons it 
was dropped then, was to address it in re-authorization. Now is 
the time to do that and to make the pilot permanent, to make it 
national, applicable in all States, and to make it applicable 
to all sponsors, public and private nonprofit.
    Our second recommendation is to improve the area 
eligibility test. In the community-based programs that I am 
focusing on eligibility often depends on the level of school 
lunch eligibility in the geographic area. If more than 50 
percent of the children in the local school are eligible for 
free and reduced price school lunch, then coverage is available 
for food for children in the summer and after-school programs 
and in family child care homes in the area. This type of area 
eligibility is a great approach because it avoids a lot of 
unnecessary red tape and burden on community sponsors, many of 
them small and many faith-based.
    The 50 percent test is too high, especially for rural areas 
where poverty is more spread out. The test used to be 33-and-a-
third percent in summer food. Last year, Congress made 40 
percent the test in the Title I education programs and in the 
21st Century Community Learning Center After-School Program. It 
should be 40 percent in the child nutrition programs, as well, 
both to reach more low-income areas and children and to ease 
administrative problems by making rules congruent across these 
after-school and other programs.
    Our third recommendation is to make school breakfasts 
available to more children. A multitude of studies has shown 
the benefits of school breakfasts, and more recently, those 
studies have shown that breakfast, when it is offered free of 
charge to all children in the school rather than just to the 
low-income children, improves achievement, behavior, and 
attendance. For one thing, more low-income kids participate 
when the program is not stigmatized and seen as being just for 
poor kids.
    We urge this committee to act on this research by taking 
the next step. We realize that money is not available to make 
universal school breakfasts available on a widespread basis, 
but we urge that it be done in a targeted set of schools, those 
that already have high percentages of children receiving free 
and reduced-price lunches, especially at the high school level, 
where the stigma problem is greatest. We also urge the 
committee to provide some funds for breakfast expansion and 
startup efforts.
    Our fourth recommendation is making suppers available at 
after-school programs in low-income areas. As the 1996 welfare 
law and changes in the economy result in much longer hours of 
work for low-income parents and often work in non-traditional 
shift and hours, after-school programs more and more have to 
operate into the early evening. Because of pilot projects that 
Congress established a couple of years ago, nonprofits in seven 
States--Delaware, Illinois, Michigan, Missouri, New York, 
Oregon, and Pennsylvania--can currently use Federal nutrition 
funds to pay for suppers for the children in those after-school 
programs that run into the early evening and that are in low-
income areas. The pilot has been wonderfully successful and it 
should be extended to all States and to school-based as well as 
community-based sponsors.
    I would also note in the context of what Senator Conrad was 
saying and Mr. Bost and I have said about the role of these 
programs in combatting obesity, that for many children whose 
parents work late, the alternative to giving them supper in 
after-school programs with healthy balanced foods is that they 
feed themselves at home or on the way home and, needless to 
say, they often feed themselves less than optimal food.
    Our fifth recommendation is increasing access to the child 
and adult care food program for preschoolers. The Child and 
Adult Care Food Program (CACFP) is a key support for quality 
and affordable care. It provides not just reimbursements for 
meals and snacks, but it provides nutrition standards and 
training and education. Because of the 1996 law's creation of a 
two-tiered reimbursement system, family child care homes and 
CACFP sponsors who support nutrition in those homes have been 
hit hard, fiscally harder than Congress anticipated. They need 
more help for their quality improvement and nutrition education 
efforts.
    Also, the rule providing that for-profit child care centers 
can participate in the program if 25 percent or more of the 
children they serve are low-income should be made permanent. 
This for-profit rule, has been done on a year-to-year basis, 
which has made planning hard and would be particularly helpful 
in Southern States, where there is more for-profit child care, 
if it were made permanent.
    Sixth: the rule for children in homeless shelters that 
provides funds for feeding them up to age 12 ought to be 
changed to up to age 19.
    In conclusion, these are key modest improvements that need 
to be made to improve access to these programs for low-income 
children and for community providers in low-income areas. We 
look forward to working with the committee on these and other 
important re-authorization issues, and I thank the committee 
for the opportunity to testify today.
    The Chairman. Thank you, Mr. Weill, for your statement.
    [The prepared statement of Mr. Weill can be found in the 
appendix on page 78.]
    The Chairman. Mr. Besharov, you may proceed.

  STATEMENT OF DOUGLAS BESHAROV, JOSEPH J. AND VIOLET JACOBS 
    SCHOLAR IN SOCIAL WELFARE STUDIES, AMERICAN ENTERPRISE 
  INSTITUTE, AND PROFESSOR, UNIVERSITY OF MARYLAND SCHOOL OF 
                 PUBLIC AFFAIRS, WASHINGTON, DC

    Mr. Besharov. Thank you very much, Chairman Cochran and 
members of the committee. My name is Doug Besharov and I work 
at the American Enterprise Institute and teach at the 
University of Maryland School of Public Affairs. I teach 
welfare policy, family policy, and evaluation there.
    I have the thankless task of being the someone who Jim just 
mentioned who said that ``some'' have suggested that Federal 
food programs help contribute to the obesity problem in this 
country. I plead guilty to that. I didn't say how much because 
I don't know how much. Obesity is a very serious problem in 
this country. I am going to go through a few numbers today.
    My position and my view is not necessarily that you should 
cut programs or cut spending. My point, my overriding point 
which I hope to leave you with today is: As of today, and even 
with the increases in the obesity programming that we planned, 
the Federal Government is not part of the solution.
    Whether the solution is fresh food, less food on the plate, 
certainly less fat, those are programmatic details. The point 
is, and I want to go through the numbers here, we have a public 
health crisis on our hands, and to think and to spend most of 
our time only talking about expansions of the program to give 
people more food misses what is the more telling and more 
pressing policy problem today.
    Now, notice I am walking into this with my eyes open. Not 
only do I understand the membership of the committee, but I 
know how this can easily become, spend more money on food 
programs for fresh fruit and so forth. Fine. To me, the issue 
here is to address forthrightly the problem that Americans, 
particularly low-income Americans, are getting fatter by the 
year and our food programs don't address that directly and they 
ought to. Let me try to be the someone with that thankless 
task.
    Senator Leahy. Don't think it is a thankless task. You have 
a lot of heads shaking ``yes'' up here at these other tables.
    Mr. Besharov. Well, if you could see right down here, you 
know I am part of the problem.
    [Laughter.]
    Mr. Besharov. I started in this business in 1967 when I was 
in Mississippi and I was part of the group that tried to get 
food--it was the Commodity Food Program then--to low-income 
Americans, mainly African Americans, who were starving. I 
understand the issues of access and I understand the issues of 
having a safety net that provides food and money so that low-
income families can eat and survive.
    That was 35 years ago. Today, as many as 70 percent of low-
income adults are overweight, and that is about 10 percent more 
than the non-poor. As I say in my testimony, racial disparities 
are even greater. Eighty percent of African American women are 
determined to be oversight. That is a third more than white 
women.
    If you look at my Table 1, you can see that these are 
changes that took place between the 1960's and about the year 
2000. Men, on the first column there, 50 percent overweight, 11 
percent obese in the early 1960's, 67 percent overweight today. 
As I mentioned, for blacks and Hispanics, the numbers are 
larger.
    The worrisome point is children. You have been talking 
about school meals. Please draw your attention to children six 
to 11. This is all government data. I haven't made it up. Four 
percent overweight in the 1960's, 12 percent overweight today. 
Black children, boys, 2 percent overweight in the 1960's, 17 
percent overweight today.
    Now, there are a lot of reasons for the increase in 
overweight, lack of access, more affluence, and so forth, and 
we can talk about that. My point is only this is a tremendously 
important question.
    Now, the other side of this that is always brought up is, 
but there is hunger and starvation in this country. There is 
hunger, but my next table, Table 2, again, straight from 
government data, no fiddling, no weighting, no changing of the 
numbers, suggests that when we talk about hunger, we often 
confuse it with food insecurity, an appropriate measure to ask 
people's financial condition when they have to buy food. In 
terms of actual hunger, the same surveys that are used by food 
advocates to show that people are food insecure, which means 
they might not have food or be worried about food at least once 
a year, show very low levels of actual hunger, especially for 
children.
    If you look in the first row, all households with children 
under 18, the food insecurity with actual hunger is less than 1 
percent. I am not saying, therefore, we don't need a food stamp 
program. I am not saying we don't need a welfare program. The 
reason this number is so low is because we have a food stamp 
program, is because we have a welfare program, perhaps because 
we have a school lunch program and WIC.
    My issue here is not that if you take away those programs, 
these numbers will stay the same. It does say that we have 
largely beaten the problem of childhood hunger, and that ought 
to open another flank, or another front in our efforts here, 
which is to fight obesity and overweightness.
    I don't want to spend too much time on these numbers, but I 
feel the issue here is really convincing you about the nature 
of these issues, so look at Table 3 for a moment and then I 
will close.
    This is mean caloric intake, and what you see at these 
numbers is--and the earliest numbers I was able to find was in 
the 1970's compared to 1988 to 1994, and what you will see is 
that all Americans, middle-class and poor, are eating more, on 
the average, about 200 calories more a day. If you are curious 
about that, and it is quite a frightening thought, 100 calories 
a day more is a pound a year, and you can do the math. I do it 
every time I say no to dessert.
    These numbers about caloric intake suggest that we have won 
the battle on caloric intake. Now, we have to change the mix of 
what people are eating, and, in fact, these numbers are 
actually higher than they should be given the reduction in 
physical activity taking place among all Americans.
    One of the members of the panel a moment ago said that he 
used to walk to school. Many fewer children walk to school. 
Both because of budget cutbacks and because of the No Child 
Left Behind program, there is much less recess. There is much 
less physical activity in school.
    There are many causes for this growing obesity, and I don't 
want you to have the impression that I am saying the whole 
cause is school lunch programs, although I have eaten them, and 
let me tell you, in the schools I have been in, they are a big 
part of the problem. I don't want you to hear me saying the 
problem is food stamps. There are multiple problems. America, 
in general, is getting heavy, but the poor are getting heavy 
faster than the rest of us and whether or not food programs are 
a part of the problem, they are certainly not part of the 
solution.
    Thank you very much.
    The Chairman. Thank you, Mr. Besharov.
    [The prepared statement of Mr. Besharov can be found in the 
appendix on page 103.]
    The Chairman. I noticed in your testimony you also proposed 
that the WIC program ought to include a program of nutrition 
counseling. Is there any specific recommendation of how we 
accomplish that?
    Mr. Besharov. Yes, Mr. Chairman. First of all, I don't 
think it is an exaggeration to say that the current WIC food 
basket is almost a Third-World food basket. It is very heavy on 
high-caloric, high-fat foods, which may have been essential 
when WIC was planned in the early 1970's and we had much less 
affluence even among the poor.
    That has changed, and we could shift the mixture of what we 
do in WIC. Right now, WIC counselors are limited to about a 15-
minute session with clients every 3 months, and that is a busy 
15 minutes. Among other things in that 15 minutes, Mr. 
Chairman, is a discussion of motor-voter. By Congressional 
mandate, part of that nutrition counseling is, don't forget to 
register to vote and vote when you can.
    That we could reconsider whether 50 to 55 percent of all 
newborn children in this country should be receiving WIC--50 to 
55 percent of new infants should be receiving WIC benefits. We 
could cap it. We don't have to cut it. Stop the growth of the 
program to that many kids. Use the money that is coming in from 
the rebate program, from other expansions, to beef up State 
counseling efforts.
    The National WIC Association, I believe--their 
representative is here, so they can tell me if I have it wrong, 
but they would very much like to see a few experiments or 
waivers where the States are allowed to modify the food 
package, modify how much time they spend in counseling, spend 
less time on other activities, and do that within current 
budget practices. It seems to me we want to see what the tens 
of thousands of dedicated WIC workers and directors could do to 
change that counseling.
    The Chairman. Mr. Weill, you mentioned that you recommend 
streamlining some of these programs. You and Secretary Bost 
both suggest that we should streamline the National School 
Lunch Program and the School Breakfast Program. How would you 
go about doing that if you were Under Secretary of Agriculture?
    Mr. Weill. Well, I would first agree with what Senator 
Harkin said, that we are not talking about a block grant here. 
We would adamantly oppose any effort to block grant the 
program.
    The ways to streamline these programs include such examples 
as letting families use one application for all programs rather 
than having a family have to make out separate applications for 
school lunch, summer food, after-school food. We also need to 
streamline the programs by letting local programs have one 
application. An after-school and summer community site in a 
church, in a boys' and girls' club, in the school, shouldn't 
have to file a separate application for after-school food 
during the school year and summer food during the summer.
    Indeed, we have recommended in our written testimony that 
programs that receive Federal funds, particularly 21st Century 
Community Learning Center funds, to operate the underlying 
after-school programs, ought to be automatically waived into 
the after-school and summer food programs. Having been 
certified for Federal funds to hire the staff, they ought to 
automatically get the food benefits, as well. There are a 
variety of ways of reducing red tape and pulling the programs 
together.
    The Chairman. Thank you.
    Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman, and 
thank you both for your long work in this area, both Mr. Weill 
and Mr. Besharov.
    Mr. Weill, first, I just wanted to clear up a couple of 
things here on the school lunch program. I am going to get into 
this whole area of obesity, too, because it is something I have 
focused on a long time, too.
    We are going to be discussing sometime this year, and the 
Department, I know, is also, this whole food pyramid, and I 
wonder if FRAC has looked at the food pyramid and its impact--
and I am going to ask Mr. Besharov the same question--and its 
impact on what is being done to design the kind of school 
lunches and school breakfasts that kids eat. Has FRAC done any 
looking at that?
    Mr. Weill. Well, we have done some looking at it, but we 
haven't gotten too far in it. USDA is relooking at the food 
pyramid and the Food and Nutrition Board is going to be making 
new nutrition recommendations.
    The WIC food package has also been referred by USDA to the 
National Academy of Sciences Food and Nutrition Board to look 
at whether there are ways to improve the WIC food package. 
There are a variety of nutritional and other authorities that 
are starting to look at the pyramid.
    The important thing, while it is certainly possible the 
pyramid could be improved, is that if families and programs 
adhere to the current pyramid, nutrition would be better than 
it is now. The pyramid may have its flaws, but all the pyramids 
that are out there all provide a better mix of foods for 
people.
    Senator Harkin. Well, the ones that are being proposed that 
I have seen pretty much change a lot of what were assumptions 
right now under the old food pyramid.
    Mr. Weill. That is right, so part of the issue is making 
the pyramid better, but part of the issue is getting everybody 
to follow whatever pyramid there is, and my point was only that 
so many people are ignoring the current pyramid that that is 
where a lot of the problem lies, too.
    Senator Harkin. Mr. Besharov, again, I want to thank you 
for being provocative and getting people to think.
    Mr. Besharov. Thank you.
    Senator Harkin. A lot of what you are talking about, I have 
been wondering about myself for years. I tried back in the 1996 
Farm bill to get vending machines out of schools, and 
obviously, I was spectacularly successful.
    [Laughter.]
    Senator Harkin. Or at least get them to shut them off after 
the last lunch period. I have also proposed that we ought to 
put more emphasis on the breakfast programs, because if a kid 
eats breakfast, then they don't get hungry later on.
    Have you looked at the fresh fruit and vegetables pilot 
program that is going on that we have----
    Mr. Besharov. Only a little.
    Senator Harkin. A little bit?
    Mr. Besharov. Senator, just a little, yes.
    Senator Harkin. Because some of the anecdotal, at least, 
evidence that we are getting back from these is that kids are 
coming to school--the fruits and vegetables are available not 
just at lunch period, but all day long. They come to school, 
they can have an apple, orange, banana--bananas are allowed, 
things like that--and they don't get hungry and so they don't 
go to the vending machines or they don't try to snack and eat 
other stuff. In fact, we had testimony from one guy that was 
before us here that they actually, because the sales of the 
vending machines had gone down, they actually took a vending 
machine out of the school.
    I would hope you would maybe take a look at that as part of 
your thinking and how you are looking at this----
    Mr. Besharov. I surely will, Senator.
    Senator Harkin [continuing]. Getting those fruits and 
vegetables there.
    Most of the pyramids that we see--have you looked at the 
food pyramid, Mr. Besharov?
    Mr. Besharov. Yes, sir.
    Senator Harkin. You must have looked at it, right? What do 
you think about it?
    Mr. Besharov. It reminds me of my mother-in-law. She says 
she has two kinds of friends----
    Senator Leahy. Be very, very careful.
    [Laughter.]
    Senator Leahy. She may read this transcript.
    Senator Harkin. This guy may be more provocative than I 
imagined.
    [Laughter.]
    Mr. Besharov. She said she had two kinds of friends at 
cocktail parties. One kind of friend dieted by eating just the 
cracker and one kind of friend dieted by just eating the 
cheese, which is to say we are in a rip-roaring fight about 
these food pyramids, and I am enough of a political scientist 
to think that there is more at stake here than healthy eating, 
which is to say there are going to be some winners and some 
losers if we change the shape of this food pyramid.
    I don't think the government has the slightest idea what to 
do about recommending food eating patterns for us.
    Senator Harkin. Well, I don't know if the government does, 
but there are experts in the nutritional field out there that 
have been examining this for the last 30 years at Harvard, 
Stanford, other places have looked at this, and they have 
looked at eating patterns and they have basically concluded 
that the basis of the pyramid is wrong and that we need more 
fruits, vegetables, things like that as the base of the pyramid 
and less of the breads and pastas and things like that, more 
grains, for example, things like that that should be in.
    The base, the base of the pyramid, of what most of the 
people are talking about, the base of the new pyramid is 
something no one talks about. At the very base, it is called 
exercise. See, what in your stage, reading much like we did 20, 
30 years ago, but we are not doing any exercise. A study, and 
again, one of these wonderful government studies came out, 
showed that less than 80 percent, 80 percent of elementary 
school kids in this country get less than 1 hour of exercise a 
week in school. They don't have recess anymore. They don't do 
the things that we used to do when we were kids. They eat this 
fat food and they don't exercise and they don't burn it up. I 
wonder if you would look at that.
    Mr. Weill. Senator, can I just say one thing about that?
    Senator Harkin. Yes, Mr. Weill.
    Mr. Weill. That is crucially important. We will all agree 
that obesity is a tremendous problem for kids, but we don't 
know everything about what is causing obesity. We ought to be 
clear about what we know and what we don't know.
    What we know is that kids have less physical activity. We 
know schools have fewer physical activity programs than they 
used to and those programs ought to be restored. We know kids 
have less opportunity after school to engage in activity than 
they used to and they need more programs that do that.
    We know that school meals have been getting better. 
Certainly, they could get even better, but we know that they 
have been getting better while the entire rest of the eating 
environment around children has been getting worse for the last 
ten or 15 years.
    What we need to do is work from the evidence that we 
actually have rather than speculation and half-truths, and 
think about how to improve these programs to reach more kids 
and fight obesity.
    Senator Harkin. Well, how do you feel about the a la carte 
lines? I want to ask you both about that. How do you feel about 
a la carte lines that we have in schools today?
    Mr. Weill. We would be in favor of giving the Secretary 
much broader authority to reduce competitive foods in the 
schools.
    Senator Harkin. How do you feel about those, Mr. Besharov?
    Mr. Besharov. If the school meal can't compete with an a la 
carte line and can't compete with fast foods down the street, 
we should worry about what we are serving in school and try to 
let them compete better. I would be in favor of letting the a 
la carte lines continue.
    Senator Harkin. Well, it is the a la carte lines that have 
all the fat food in them, Mr. Besharov. Ask any of your school 
food service people.
    Mr. Besharov. If you can trust the USDA numbers, we start 
with the fact that the combined caloric intake of the school 
breakfast and the school lunch program is 56 percent of a 
child's daily needs. That is on the average child. For younger 
children, for girls and so forth, it is higher than that.
    It may be that the a la carte line is worse, but it is not 
that the school lunch line is all that good, and if we want 
children to eat that food, let us make it better. Let us not 
take away their choices. I don't see what the problem there is.
    Now, I have spoken to school lunch preparers, not the union 
people and so forth and so on, and there is a challenge in the 
kinds of things we ask them to cook, and what it reminds me of 
is the first time I ate in the Clinton White House mess. It was 
quite difficult to enjoy the food because it fit under the 
guidelines we were trying to apply to school lunches.
    There is a way to cook healthy. There is a way to make food 
appetizing. It may not be a hot meal with a hot vegetable. It 
could be a great sandwich and a great salad. That kind of 
flexibility ought to be built in if we trusted the school 
systems to do what was best for kids within a broad set of 
guidelines. I am not talking block grant. It is much more 
difficult to provide a hot meal within the school structure 
than a nutritious, balanced, calorically appropriate cold meal. 
We could experiment with that, and many schools do that. We 
could just think about these things and not be caught up in 
what is in the end, a political argument.
    What is happening is, not just for the poor, not just 
children and school lunches, but America is getting heavy and 
it is a health hazard of immense proportion.
    The Chairman. Thank you, Senator.
    Senator Harkin. Thank you, Mr. Chairman.
    The Chairman. Senator Lugar.

  STATEMENT OF HON. RICHARD LUGAR, A U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. Essentially, as you 
have noted, and Secretary Bost has, this hearing comes at a 
time that the Senate budget for all we are talking about is 
flat and the House has cut 5 percent, and so it is in 
conference. Therefore, the problems of doing additional things 
are compounded by the fact we are about to pass a budget, and 
the constraints are obvious and may be severe.
    Having said that, it seems to me that what we need from 
both of you and the witnesses today is some specific 
legislative language. Often, these hearings get into the 
philosophy of what we ought to be doing, and that is helpful in 
terms of a public airing.
    For example, this is a concrete problem that Senator Harkin 
brings up. We have heard testimony year after year, all of us, 
about the vending machines in the schools, and the reason the 
vending machines are there largely is because the principals 
not only permit it, but they support it. They like the revenue. 
The thought comes back to us that we would be depriving the 
school of a certain quality of experience if those revenues 
were not available.
    Now, we begin to argue nutrition, and then we get into a 
Libertarian argument that, after all, every American, 
regardless of age, size, and so forth, ought to have any choice 
that he or she wants. That is nonsense if we are really worried 
about obesity or worried about nutrition.
    Clearly, the problem, as some of you pointed out, is that 
the foods made available to these school lunches frequently are 
not the most nutritious because those might be expensive.
    Now, Secretary Bost, at least, has come along and said we 
ought to have a vegetable and fruit program. Wherever the 
pyramid comes out, most nutritionists in the country do believe 
most Americans would do better off if we had more fruits and 
vegetables in our diets. This seems to be almost a no-brainer, 
but it is expensive, and the problem of substituting whatever 
we have there in the school lunch with more fruits and 
vegetables involves expense.
    How we come to grips with this is a legislative process, 
and I am searching. Now, I want to look at what Secretary Bost 
offers in terms of legislation, but at least it is a proposal.
    Likewise, with regard to vending machines, whether Senator 
Harkin's idea of closing them certain hours or at least cutting 
down the dull roar of competition, at least that is a 
possibility.
    If we go into this, then we bring all of American society 
in, as you suggested, Mr. Besharov, into a political issue. 
Should we have freedom of choice quite apart from nutrition or 
obesity and so forth? It is a reasonable argument.
    This committee, by and large, is for nutrition, for 
children growing up strong, and so at least I want to stay on 
that course. I would tend to be against the vending machines if 
I had to make a choice between the two. I would choose the 
fruits and vegetables as opposed to a lot of what we have there 
now, and that was going to probably cost money.
    I am certain expansion of the summer program will cost 
money. The reason for having summer programs is that the 
committee has discovered, as many of you have, that a lot of 
children who have school lunches during the year, it simply 
drops off at the summertime. A continuation of this, I think is 
important.
    We can make an argument how many children in America, what 
percentage, are undernourished either during the school year or 
during the summer, but having at least come to some idea of 
what the number is we ought to be serving, the consistency of 
the program is important and that requires some improvisation, 
given the numbers of sponsors that have to be substituted.
    I commend Secretary Bost for wanting to expand that issue. 
I would hope so, too. That has a budgetary figure attached to 
it that has to be recognized, too, and hopefully will be in our 
process here.
    Finally, it just seems to me that with regard to all of 
these standards, we have probably not come to grips with why 
some children get breakfast, why some don't. The standards of 
education seem to be better if everybody gets breakfast. This 
then leads to an issue that floats through this. How do you 
rigorously determine who ought to be getting this, who is 
deserving from an income standpoint?
    Many people have suggested new audits, new screenings. You 
have suggested, Mr. Weill, this has some dangers because in 
most of these affairs, many poor children who do not have 
advocates for them, including their parents, are likely to get 
left by the wayside, and that seems to be anecdotally what is 
occurring in these past screenings, and that is important, 
because if there are poor children that are not receiving food, 
they are probably in this group that got screened out in the 
process.
    I would want to proceed very cautiously. Most of you do, 
too. Certainly, Secretary Bost gave that indication in his 
testimony and I just underline it, because I am afraid the 
rhetoric of school lunches usually is that, somehow, there are 
a lot of free lunches going to affluent children, and we have 
worked from then on to make sure that there are no malefactors, 
even if we screen out people who are in genuine need.
    I have finally come down, and I would ask your comment 
finally on this, that most of the arguments in favor of food 
banks in the county still suggest in a time of affluence, 10 
percent of the population is challenged. That doesn't mean 
hungry every day, but from time to time have nutritional needs. 
This, even of the total calorie variety, not of the obesity 
situation. Is that overstated? Is this a figment of the 
imagination? The U.S. Conference of Mayors, others seem to have 
done some work in this area for a while. This is the basis on 
which many of us support trying to help the food banks out a 
great deal more.
    [The prepared statement of Senator Lugar can be found in 
the appendix on page 58.]
    Senator Lugar. Let me just ask that question. What is the 
incidence of hunger in America? Even anecdotally, what rigorous 
analysis, and you have given some of this, Mr. Besharov, and I 
give credit for your stating those statistics, but it doesn't 
altogether solve my problem that I just see, at least, at the 
local level. A good number of children look to me to be in need 
of somebody taking care of them. We can say parents should 
have, or some other adult supervision, all the way along, but 
they don't. Finally, the schools do, and I am glad they do 
because it makes it possible for these children to learn, 
likewise, maybe to have some health. What is the incidence, as 
you see it, of the hunger situation in America?
    Mr. Weill. According to the scientific studies, from the 
Census Bureau and USDA through a process vetted through 
academics, there are 33 million Americans who live in 
households that suffer from either hunger or food insecurity. 
Not all those households, not all those people suffer from 
hunger, in large part because of these nutrition programs. The 
number of households, I believe, in which there is outright 
hunger, is three and one half million households with nine 
million people in which there is actual hunger. People depend 
on food banks and on emergency services of other kinds, from 
cities, and others to stave off hunger.
    I just would add, Senator, I agree with everything you said 
about program integrity and the vending machines. That one 
other strategy here that a lot of schools are using is to put 
fruits and vegetables, low-fat milk, and other healthy choices 
in vending machines rather than throw out the vending machines, 
and some schools have found that they make just as much money 
off the machines that way.
    These issues also go to how complicated the lives of poor 
kids and the institutions that serve them are. I heard a story 
a month ago that in the Philadelphia schools, kids drink soda 
from the vending machines in part because all the water 
fountains are shut down in the low-income schools, either 
because they are broken or because there is lead in the water. 
When we talk about these issues, we have to recognize the 
realities of the lives surrounding low-income kids.
    Mr. Besharov. I certainly agree with what Jim just said, 
but I just passed to him the USDA numbers that he was 
mentioning. They are on page four of my testimony. What they 
show is that only when you use the phrase ``food insecurity'' 
do you get anywhere near the 10-percent number.
    Look, there are young people in this country who are today 
severely malnourished because they are not getting two squares, 
let alone three, and it is clearly the case that for older 
people, this is a serious problem, no doubt about it. The 
analogy is what we are seeing on TV in the war on Iraq. We see 
areas of severe firefights, and there are other areas that are 
peaceful. There are pockets of people who are in deep trouble 
and we should be addressing their needs, whether it is in a 
food program at school or some social service assistance.
    The larger picture is one of victory through 30 years of 
expanding food programs. It is not impossible to say, on the 
one hand, we had a great success here, and on the other, we 
should not cut back the programs. The success comes from the 
programs.
    If I might, Senator, to answer your question about what do 
you do in a time of limited need, I would take a page out of 
part of the welfare reform story. We here in Washington 
pontificated for 20 years--40 years if you go back to the 
Kennedy administration--about how to reform welfare. It turned 
out, forgetting about the block grant part of it, it turned out 
that the States had loads of ideas and we had never really 
asked them. Instead, we tried one idea from Federal Government 
officials and think tanks--I plead guilty--after another.
    It wouldn't be so awful to give in the WIC program some 
flexibility to a few States, let them experiment. It would not 
cause the end of the world to give some States flexibility in 
the school meals program to see what they came up with, not 
getting to a block grant, but just asking where the good ideas 
are. They are not just all here in Washington, and it is almost 
a dead end to say, do we have all the answers? Let us propose 
the answers. An overriding answer is, let us see what the 
States would come up with if, in a constrained, limited way, we 
asked them for new options on how to deliver nutritious quality 
food to kids.
    Mr. Weill. If I may, Senator, I would just note that there 
is more flexibility, perhaps, than Mr. Besharov is aware of. He 
was talking earlier about the lunch program requiring hot meals 
to be served. That is actually not true.
    Mr. Besharov. Actually, I didn't say that. I didn't mean to 
say that.
    Mr. Weill. Schools could serve the cold meals with more 
fruits and vegetables that he is talking about. The problem is, 
it is more costly. Again, the resources are the constraint here 
on better food, much more than the lack of flexibility.
    Senator Lugar. Thank you. Still, if you would have 
legislative language on any of these things, that would be 
tremendously helpful.
    Mr. Weill. We will be delighted to provide it.
    The Chairman. Senator Leahy.

  STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you, Mr. Chairman, and thank you for 
having this hearing. I and Senator Lugar and Senator Harkin 
have worked on these issues for forever.
    [Laughter.]
    Senator Leahy. I know the three of us had hair back when we 
started. I actually had some. It shows how long it has been 
going on.
    I would ask that my full statement be placed in the record, 
if I might, Mr. Chairman.
    The Chairman. Without objection, so ordered.
    Senator Leahy. I listened carefully, as we all have, to 
this. I grew up at a time when we didn't have a school lunch 
program. I walked home for lunch. My kids, when I say anything 
about this, they say, ``Yeah, yeah, Dad, we know, snow up to 
your waist and it was uphill both ways, going and coming.''
    [Laughter.]
    Senator Leahy. I had the advantage of not living far from 
the school and having an Italian-American mother and lunch was 
probably a heck of a lot better than it would ever be in a 
school lunch program.
    That is not the reality today. It is not the reality of my 
children going to school. I can't help but think what a 
wonderful opportunity we have for real education as well as 
nutrition in the school lunch program. Every teacher will tell 
you a well-fed, nutritionally fed child, not one who has the 
surge of the ups and downs from a sugar high and a sugar crash, 
things like that, they are going to learn better. There are a 
lot of other aspects going through the course, but it is one.
    We seem to grapple with this all the time. I go to some 
schools and there are really good lunch programs and the kids 
love it. You go in others and it is a question, do you have the 
green glop or the gray glop today? Yet, I have to assume that 
basically you are working on some of the same parameters, at 
least, when it comes to funding.
    Now, Mr. Besharov, you said all these statistics about 
growing rates of obesity among Americans, and they are well 
documented. I was at a medical forum in Vermont, very, very 
good people across the State back here a few months ago. 
Basically, we were talking about Medicare and things like that, 
but it quickly went down to how much money we would save in 
this country if we just tackled that one question of obesity 
and some of the things that come out, problems, everything from 
aggravation of a diabetes case to heart to on and on and on. 
That one thing would lower in our own State very dramatically 
the costs of medical care if we could somehow get hold of that.
    Actually, everybody has touched on that, but in terms of 
child nutrition programs, if you have sodas and candy and other 
foods in competition, does that not add to this child 
overweight and obesity problem? Mr. Besharov.
    Mr. Besharov. The answer, of course, is all other things 
being equal, sure. Now, the question is, are all other things 
always equal and is that the shortest distance from here to 
there?
    First of all, let me make it very clear that that the 
obesity problem in this country goes far beyond school meals, 
goes far beyond Federal aid to nutrition programs. You can't 
look at the growing girth of Americans in general without 
thinking that there are forces much broader than what is 
happening in schools and so forth. It is happening all over in 
various ways--larger portion sizes at home, in restaurants, 
fast food, less exercise.
    My point is, and the committee and the Congress may decide 
to prohibit these things, and I have no brief one way or the 
other. My fear, Senator, is as follows. That may just be the 
most obvious band-aid to a much larger problem, which is the 
quality--the tastefulness of the food, the willingness of young 
people to eat the food that is served to them. I don't think it 
is just that these young people want the pizza or want the 
candy bar. It is that what they are being offered on the line 
doesn't attract them.
    Senator Leahy. The green glop and the gray glop?
    Mr. Besharov. Yes. As I say, I have this lucky situation. I 
don't even know who runs the vending machines. I don't run a 
sports team. I have no interest one way or the other in this 
one. I worry that if you do only that and don't address the 
question of why they are turning to those machines, they will 
find some other way to eat that stuff.
    Senator Leahy. The reason I ask, any suggestions people 
have to make, you are going to have a welcome audience here. 
This committee on nutrition matters has never been a partisan 
committee. We have had--I remember back when I was first on 
here, Senator Dole, Senator McGovern, Senator Hubert Humphrey 
joined together on these matters. Senator Dole and Senator 
McGovern, and I have a proposal now which actually Senator 
Lugar, we see it in the Foreign Relations Committee and we see 
it in Appropriations, the schools program in parts of the Third 
World, in Africa and elsewhere, where, as a result, maybe girls 
will be able to go to school as well as boys. Now, that is not 
going to change things the first year or the second year or the 
third year, but over time, think what that will change in just 
the structure of some of these places.
    My last question, and I will put the rest in the record, 
but Mr. Weill, you know my State of Vermont is very rural and 
we have a difficult time setting up summer feeding programs. I 
get very frustrated by it because I have helped get money for 
summer feedings programs. We don't use it as much as I would 
like to see it.
    You have mentioned the change in the area eligibility rate 
from 50 percent to 40 percent would help rural areas expand 
access to the summer programs, and I agree with that. What do 
you do, though, and how do you get the kids there? Again, this 
is not like where I grew up in Montpelier, Vermont, and I could 
walk home to school. I mean, these rural areas are scattered 
all over. Neighbors might be a mile, two miles, three miles 
apart and the school might be another eight or ten miles. How 
do you do that?
    Mr. Weill. That is right. There used to be some grant funds 
in the summer food program that helped cover special 
transportation and startup costs and, money permitting, we 
would be all in favor of restoring those grants. The 50 to 40 
is one strategy. Making the Lugar summer pilots nationwide is 
another.
    In some States, summer food providers have used some very 
novel strategies, like running the summer food program off a 
bus and taking the food to the kids----
    Senator Leahy. That is an idea.
    Mr. Weill. There are a number of ways to make the program 
easier to run--not easy to run, but easier to run in rural 
areas and we would be glad to talk to you further about that.
    Senator Leahy. Mr. Chairman, thank you for doing this. You 
and Senator Lugar and Senator Harkin have really been giants in 
this area of school lunch and school nutrition. I have to go 
back to Judiciary. I would much rather stay here. This is a lot 
more fun because there tends to be a lot more agreement here. 
Maybe when you start alphabetically, with Agriculture, by the 
time you get all the way up to the ``J''s, the committee breaks 
down, or maybe it is the issues. I don't know. Thank you.
    The Chairman. Thank you very much, Senator Leahy.
    Thank you both for being here today and giving us the 
benefit of your thoughts and observation and experience in 
these programs.
    Mr. Weill. Thank you very much, Mr. Chairman.
    Mr. Besharov. Thank you very much.
    The Chairman. Our next panel consists of five individuals 
representing different organizations or associations. Ms. Jill 
Leppert is President of the National WIC Association. Ms. Anne 
Curry is Vice President of the Food Marketing Institute. Ms. 
Karen Caplan is Chairman of the Board of United Fresh Fruit and 
Vegetable Association. Mr. Rod Hofstedt is here representing 
the National Child and Adult Care Feeding Program Forum. Mr. 
Don Wambles, who is President of the WIC Farmers Market 
Association.
    I hope that you will all be able to limit your presentation 
to recognize the fact that we are almost at the noon hour. We 
don't want anyone to go hungry because of this hearing.
    [Laughter.]
    The Chairman. We don't want to cut you short, either. I 
have a device here that signals when 5 minutes is up, and I am 
reluctant to use that, but I would encourage you to try to keep 
your opening statements within 5 minutes and that will give us 
all an opportunity to ask you questions if you are able to do 
that.
    Thank you all for being here. We have copies of the written 
statements that you have submitted. They will be made a part of 
the record in full, and so I will ask Ms. Leppert to please 
proceed.
    [The prepared statement of Senator Leahy can be found in 
the appendix on page 59.]

STATEMENT OF JILL LEPPERT, PRESIDENT, NATIONAL WIC ASSOCIATION, 
                     BISMARK, NORTH DAKOTA

    Ms. Leppert. Thank you, Mr. Chairman and members of the 
committee, for your invitation to present the National WIC 
Association's views on re-authorization of WIC. Our members 
work to improve the quality of life for over 7.5 million 
participants monthly.
    At the onset, I would like to compliment you, Mr. Chairman 
and members of the committee, for your commitment to WIC, as 
well as President Bush and Secretary Veneman for their support. 
NWA is proud of the strong bipartisan commitment WIC has had 
since its inception.
    WIC has an extraordinarily nearly 30-year record of 
preventing child health problems and improving their health and 
growth and development. WIC children enter school ready to 
learn.
    In its December 2001 report to Congress, GAO identified six 
challenges facing WIC. With your permission, I would like to 
highlight our proposed responses.
    As local public health departments are reducing or 
eliminating health care services, WIC has become the single 
greatest entry point of health care for many WIC families. To 
eliminate unnecessary clinic visits and allow for better 
coordination with health care services, providing more 
nutrition counseling time, and streamlining paperwork, NWA 
recommends giving States the option to extend certification 
periods for up to 1 year for children and breastfeeding women.
    WIC resources are being stretched in amazing ways. 
Currently, WIC staff provide participants with information on a 
wide variety of subjects, some of which relate to WIC's mission 
and some that do not. Each minute of an unfunded mandate 
results in the loss of over 125,000 hours of nutrition 
education intervention annually. The GAO has identified at 
least 90 program requirements that have been added to WIC since 
1988.
    WIC is proud of the role we play in our public health 
system. However, expecting so much of the WIC program while 
providing no additional resources as we assume more 
responsibilities challenges WIC's infrastructure, staff, and 
the families that WIC serves.
    WIC's population, like the general population, has 
experienced dramatic experiences in the prevalence of obesity 
and related health issues. In addition, there have been 
dramatic increases in the ethnic diversity of the WIC 
population.
    NWA would like to recommend, first, while WIC programs have 
been actively engaged in obesity prevention efforts, the 
program's definition of nutrition education is self-limiting. 
NWA recommends expanding the definition of nutrition education 
to allow for anticipatory guidance related to physical 
activity, feeding relationships, and child development.
    Second, the current WIC food package is now nearly 30 years 
old and is no longer consistent with current dietary guidelines 
or science. WIC agencies have independently taken steps to 
combat the nation's obesity epidemic by modifying the WIC food 
package when necessary. Agencies often provide low-fat milk and 
low-fat cheeses, thus reducing the total caloric, cholesterol, 
and fat intake of the food package. Simply put, the WIC food 
package is not a cause of obesity. Contrary to Mr. Besharov's 
assertion, it is not about more food, but it is about better 
food. More can be done.
    In 2002, SWA recommended changes to the WIC food package to 
reflect current nutrition science. While Under Secretary Bost 
and his FNS teams are to be commended for their efforts to 
publish a proposed rule of the WIC food package and applauded 
for referring an evaluation of the food package to the 
Institute of Medicine, the time has passed for WIC to provide a 
healthier food package. NWA recommends USDA report to Congress 
within 6 months of re-authorization on the status of efforts to 
adopt a new food package and that USDA publish within 6 months 
of that report a proposal to revise the WIC food package.
    Third, in the interim period, NWA asks Congress to direct 
USDA and FNS to allow States to implement pilot or 
demonstration projects that would allow for food substitutions, 
including fresh, frozen, or canned fruits and vegetables and 
food items responsive to the needs of WIC's diverse cultural 
population.
    Fourth, NWA recommends that the Institute of Medicine 
reevaluate the WIC food package at least every 10 years, 
recommending changes to reflect current and national nutrition 
science and concerns.
    Fifth, the competitive bidding process requirement for 
infant formula has resulted in significant savings for the WIC 
program, allowing WIC to serve roughly one in five 
participants. Efforts to weaken this program would have 
unintended consequences. NWA urges Congress to ensure that this 
program element is protected.
    The current funding formula does not allow States 
sufficient NSA funds to support funded participation levels, 
maintain, protect, and improve client services and program 
integrity. NWA recommends that States have the option to 
convert unspent food funds to NSA and to apply a portion of the 
rebate dollars received to NSA in accordance with the 
proportional administrator food split.
    Technology provides a critical foundation for quality WIC 
services and program integrity. Funding WIC technology from 
existing resources compromises WIC's ability to deliver 
services and to develop responsive MIS systems. To develop and 
maintain MIS and electronic delivery systems and to link other 
health data systems, NWA supports USDA's efforts in this area, 
but recommends that Congress provide $122 million annually 
outside the regular NSA grant to upgrade and maintain WIC 
technology systems.
    Finally, Mr. Chairman and members of the committee, NWA 
looks forward to working with you in this re-authorization 
process. I remain ready to answer any questions or to provide 
additional information that you may request. Thank you.
    The Chairman. Thank you very much, Ms. Leppert.
    [The prepared statement of Ms. Leppert can be found in the 
appendix on page 112.]
    The Chairman. Ms. Curry, you may proceed.

   STATEMENT OF ANNE CURRY, VICE PRESIDENT, LEGISLATIVE AND 
  POLITICAL AFFAIRS, FOOD MARKETING INSTITUTE, WASHINGTON, DC

    Ms. Curry. Good morning, Mr. Chairman, members of the 
committee. Thank you for the opportunity to provide testimony 
regarding the re-authorization of the Special Supplemental 
Program for Women, Infants, and Children on behalf of the 
26,000 retail food stores represented by the Food Marketing 
Institute.
    Retail food stores are proud to partner with both Federal 
and State programs to ensure that recipients of our nation's 
food assistance, particularly pregnant women and their young 
children, are able to access these benefits without difficulty 
in our stores. FMI is in full agreement with the important 
mission of the WIC program and supports its goals 100 percent.
    In preparation for the re-authorization of the WIC program, 
we reconvened a WIC task force to compile recommendations for 
consideration by Congress. It was composed of 15 grocery 
companies and seven State grocer associations. We identified 
areas for improvement for both the customer and the retailer 
experience.
    Today, the administrative process in the WIC program from 
the initial authorization of a store to customer check out and 
retailer reimbursement is incredibly complex and needs to be 
more user-friendly and efficient. It is also important to note 
that our recommendations will not cost money, and certainly in 
a tight budget year, this should prove to be important to a 
committee chairman who is also an appropriator.
    [Laughter.]
    Ms. Curry. Additionally, we proposed that these 
recommendations should actually achieve savings and certainly 
efficiencies and improved customer service.
    The WIC task force identified six areas that need to be 
addressed from a grocer's perspective: Retailer authorization, 
retail operations, reimbursement issues, penalties, EBT, 
(electronic benefits transfer), and infant formula theft. 
Certainly, each of these recommendations, if implemented, would 
positively impact the recipients, as well.
    The complete FMI WIC task force report has been submitted 
for the record, and I believe you all received a copy of this. 
From this comprehensive report, we developed a top-ten list of 
priority items, and it is those items that I would like to 
highlight today.
    One, the notification of a store owner or manager when a 
compliance violation should occur.
    Two, an interim WIC license should be available on a short-
term basis after a change in store ownership while the new 
owner's application is being reviewed by the Department of 
Agriculture.
    Three, WIC retail advisory panels should be authorized and 
required in every State to address operational issues on an 
ongoing basis.
    Four, private label or store brands should also receive 
approval in the WIC program, provided these items maintain the 
nutritional integrity of the current WIC products.
    Five, the WIC program needs to be more flexible with 
minimum inventory, particularly, for example, with some of the 
special infant formula products.
    Six, prescriptions need to be more attuned to the 
manufacturers changes in their packaging of products. For 
example, the WIC prescriptive might be a 46-ounce can, where 
the most popular size of a juice that you would purchase would 
be in a 64-ounce plastic bottle. Therefore, inventory is not 
always able to keep up with that and it could be more expensive 
because it is a non-traditional size. We recommend that those 
issues be addressed.
    No. 7, line-item rejection for vouchers should be permitted 
rather than throwing out the entire voucher when a single item 
is not eligible for reimbursement.
    Eight, WIC EBT cost should be neutual to authorized 
retailers and follow the path of the food stamp program as they 
move from WIC coupons to EBT cards.
    No. 9, retailers are very supportive of a national WIC UPC 
data base and feel that it is a necessity that would 
dramatically decrease the potential for human error, 
particularly in some States that are moving to EBT.
    Finally, No. 10, infant formula theft in the stores is a 
real problem for retailers. In fact, it is one of the ten most 
stolen items from a grocery store and a potential health risk 
for young babies.
    We appreciate the opportunity to provide further input and 
look forward to working with you and your committee staffs in 
the coming months. FMI stands fully committed to the goals and 
mission of the WIC program, ensuring that our customers are 
able to access their benefits in the most efficient and 
compassionate way in our stores.
    Thank you again for allowing us to testify and we would 
appreciate any questions.
    The Chairman. Thank you.
    [The prepared statement of Ms. Curry can be found in the 
appendix on page 121.]
    The Chairman. Ms. Caplan, you are welcome to proceed.

   STATEMENT OF KAREN CAPLAN, FRIEDA'S, INC., LOS ALAMITOS, 
 CALIFORNIA, ON BEHALF OF THE UNITED FRESH FRUIT AND VEGETABLE 
                          ASSOCIATION

    Ms. Caplan. Thank you. I was hoping to start by saying good 
morning, but as I look at the clock, I see that I will change 
that to say, good afternoon, Mr. Chairman and members of the 
committee. My name is Karen Caplan. I am the President and CEO 
of Frieda, Incorporated, the nation's leading marketer and 
distributor of exotic fruits and vegetables, based in Los 
Angeles, California.
    I come before you today as Chairman of the Board of the 
United Fresh Fruit and Vegetable Association, the fresh produce 
industry's national trade organization. I am joined here today 
by our Association President, Tom Stenzel, and our Vice 
President for Public Policy, Robert Guenther.
    I am also a mother of two school-aged children, so my 
interest in child nutrition is very personal as well as 
professional.
    I don't need to repeat the facts about today's crisis in 
childhood obesity and poor nutrition, which is leading to a 
future legacy of disease and staggering health care costs. Now 
is the time that all of us must work together in a bipartisan 
fashion to put in place actual solutions to these challenges, 
not excuses for failing to act.
    As you approach this difficult task, we have to be honest 
with ourselves. Despite the best efforts of many in this room, 
the nutritional health of our nation's children has in far too 
many cases come second to other considerations. We tell food 
service managers to offer healthy meals, but low reimbursement 
rates encourage them to use inexpensive ten-pound cans of 
string beans and mushy fruit instead of offering fresh fruits 
and vegetables that kids might like and they might eat.
    We tell school officials to create healthy school 
environments, then look the other way when kids turn to 
competitive foods on a la carte lines or vending machines down 
the hall.
    We tell kids and parents how important it is to eat five to 
nine servings of fruits and vegetables every day as the key to 
good health. Then we can't find room in the WIC program for 
even a modest amount of fresh fruits and vegetables because of 
opposition from entrenched commodities.
    It is clear that something has to change, and change 
dramatically. Mr. Chairman, we submit that Congress must 
develop legislation to make healthfulness and quality equal 
components of school breakfasts and lunches, to build a 
healthier school environment that truly teaches lifelong wise 
food choices, and to launch a smarter start for WIC recipients 
that could be incorporated into healthy diets long after they 
leave the program.
    How can we do that? As you review all the testimony before 
the committee, you will find one common goal among every 
interest group. We need to increase the availability of quality 
fresh fruits and vegetables to kids, whether it is through 
school breakfast, lunch, or the WIC program.
    The single most important thing I want to talk to you today 
is about USDA's new fresh fruit and vegetable pilot program 
launched in the Farm bill last year. On behalf of the 106 
schools in the pilot program, I bring you unqualified and 
enthusiastic support from the teachers, the parents, the school 
food service officials, principals, school nurses, and, yes, 
even the children, for continuing and expanding the fresh fruit 
and vegetable pilot program.
    Under Secretary Bost referred to the administration's 
support for this program during his earlier testimony, and I 
want to reinforce and magnify his comments. At the conference 
hosted last week in Indianapolis, officials from Indiana, Ohio, 
Michigan, Iowa, and the Zuni Nation in New Mexico shared 
success stories greater than anyone could have imagined.
    Teachers reported more attentive students and focused 
classrooms. School nurses reported fewer trips to the nurse and 
fewer absences. Food service managers reported more healthy 
meals served and more fruits and vegetables being chosen in the 
cafeteria. Principals reported fewer behavior problems. Parents 
reported kids asking them to buy new produce items at home. The 
kids reported trying new fruits and vegetables and increasing 
their consumption by at least one full serving a day.
    After decades of working to teach school kids to make 
healthy food choices, we finally learned the secret to 
increasing their consumption. Put appealing, good tasting fresh 
fruits and vegetables in front of them and they will love you 
for it. All this, just because the government spent a modest 
amount to give them a healthy fruit and vegetable snack at 
school. That single lesson may help launch the most effective 
program in truly transforming the school food environment and 
increasing actual consumption of fruits and vegetables to meet 
U.S. dietary guidelines.
    As a produce mom who sometimes takes new and unusual fruits 
and vegetables to my kids' classes, I had the opportunity to 
learn firsthand how this powerful form of experience-based 
learning can be, because my daughter is in Brownies and it was 
my turn to do the Brownie triad. The kids in our troop tried, 
and I brought this so no one will go hungry today, Mr. 
Chairman, Asian pears, and we brought some blood oranges--I 
don't know if any of you have ever tried those, sugar snap 
peas, and jicama.
    The Chairman. What was the last one?
    Ms. Caplan. Jicama.
    The Chairman. OK.
    [Laughter.]
    Ms. Caplan. I knew I would stump you with one of them. Oh, 
I don't want to forget the most important fruit here, since my 
mother actually introduced it to America, the kiwi fruit. A lot 
of kids had never tried that.
    The interesting thing was the Brownie meeting was at three 
o'clock in the afternoon. All of the parents had assured me 
that their kids would never try this weird stuff. I was amazed 
the next morning to get e-mails and phone calls from almost 
every single mother that their kids now were talking about 
packing five a day in their school lunch, they were looking to 
see if they were drinking 100 percent fruit juice, and they 
were looking forward to going shopping in the produce 
department.
    We urge the committee to expand--I want to say that again--
we urge the committee to expand the fruit and vegetable pilot 
program to all 50 States at a pilot level next year so we can 
continue to collect the data and results that will determine 
how this program can be implemented most effectively.
    In addition to this pilot program, my written testimony, 
which I won't go over in detail, includes 31 specific 
legislative recommendations covering seven key issue areas in 
child nutrition. I ask you to examine all of these areas for 
cost-effective and successful strategies for increasing fresh 
fruits and vegetables through child nutrition programs.
    Thank you so much for letting the produce industry speak.
    The Chairman. Thank you, Ms. Caplan.
    Ms. Caplan. You are welcome to enjoy this.
    The Chairman. Don't run off.
    [The prepared statement of Ms. Caplan can be found in the 
appendix on page 125.]
    The Chairman. Our next panel member is from the State of 
Minnesota, and Senator Dayton has asked for the privilege of 
introducing you. Senator Dayton.

  STATEMENT OF HON. MARK DAYTON, A U.S. SENATOR FROM MINNESOTA

    Senator Dayton. Thank you, Mr. Chairman. I will be brief. 
Does this mean they are going to change the name of the 
Brownies to the ``Kiwis'' then?
    [Laughter.]
    Senator Dayton. I speak, Mr. Chairman, on behalf of my 
colleague, Senator Coleman, who is also a member of this 
committee and wanted to be here. He is chairing a Foreign 
Relations Subcommittee meeting right now, a hearing, so 
unfortunately, he can't join us, but he joins with me in 
thanking you for introducing with great pride, of Minnesota, 
Rod Hofstedt, who has been a leading advocate for food and 
nutrition advances for Minnesota's children and adults for the 
last--well, more than 23 years.
    Twenty-three years ago, he founded and since then has 
directed one of the largest family and child and adult 
nutrition alliances and family and child program throughout the 
country and has been recognized now, as before, for his 
leadership in this regard by being the President-elect of his 
national association.
    It is with great pride that I introduce Mr. Hofstedt, and 
again, Mr. Chairman, thank you for including this Minnesotan on 
your panel.
    The Chairman. Thank you, Senator. Thank you.
    Mr. Hofstedt, you may proceed.

   STATEMENT OF ROD HOFSTEDT, EXECUTIVE DIRECTOR, ADULT AND 
  CHILDREN'S ALLIANCE, ST. PAUL, MINNESOTA, ON BEHALF OF THE 
        NATIONAL CHILD AND ADULT CARE FOOD PROGRAM FORUM

    Mr. Hofstedt. That was very nice. I would like to thank you 
on behalf of the National Child and Adult Care Food Program 
Forum for allowing us to share our views with you today.
    The Forum represents local primarily nonprofit sponsoring 
organizations that administer the Child and Adult Care Food 
Program to family child care providers across the United 
States. Family child care providers provide child care in their 
own homes.
    Based on our experience and numerous research studies, we 
believe that the Child and Adult Care Food Program, CACFP, is 
one of the key building blocks for good nutrition in quality 
affordable child care. CACFP serves 2.7 million children daily, 
over 900,000 in family child care homes and 1.7 million in 
child care centers.
    Today, I am going to focus on the family child care portion 
of CACFP. The program provides reimbursement for food and meal 
preparation costs, ongoing training in the nutritional needs of 
children, and onsite technical assistance through a minimum of 
three in-home visits each year.
    Nutrition problems start at a young age. A recent review of 
the research on the nutritional status of preschool children 
revealed some disturbing trends relating to an increase in 
obesity and overweight as well as other problems. Research has 
shown that homes participating in the CACFP serve more 
nutritious meals and snacks. Parents can rely on child care 
providers participating in the CACFP to be good partners in 
helping their children develop positive nutrition habits early. 
Since many habits learned in child care will last a lifetime, 
we must make certain that CACFP is available to help make sure 
these nutrition habits are desirable and healthy.
    Unfortunately, fewer and fewer children in family child 
care are able to participate in the Child and Adult Care Food 
Program. Many more children could be served if Congress would 
reduce unnecessary red tape, provide support for continuing 
nutrition education, and restore some of the reimbursements 
that were cut so drastically as a part of the 1996 welfare 
reform law.
    Since the 1996 cuts, which were made as part of 
implementing a means test, CACFP and family child care has gone 
from being one of USDA's fastest-growing programs to a program 
that serves fewer and fewer children each year. There has been 
a 14 percent drop in the number of homes participating and a 7-
percent drop in the number of children and meals served through 
the family child care portion of the program. In fact, in 
comparison to USDA growth projects, CACFP and family child care 
now serves a quarter of a billion less meals and snacks than 
was expected without the means test.
    In the interest of time, I will only cover several key 
recommendations for improving access. These recommendations are 
based on surveys of sponsoring organizations, providers focus 
group, and an analysis of participation data.
    More low-income families would participate in the Child and 
Adult Care Food Program if Congress would reduce the red tape 
involving qualifying for low-income reimbursement rates by 
reducing CACFP area eligibility from 50 percent to 40 percent. 
The final reimbursement rates adopted for families with incomes 
over 185 percent of the poverty level were considerably lower 
than those initially proposed. The means test system with these 
reduced rates has had the unintended consequence of driving 
providers off the program. For example, these providers only 
receive 14 cents for serving a nutritious snack. Congress needs 
to raise these reimbursement rates to a reasonable level in 
order to compensate providers for a greater part of the cost of 
meeting the CACFP meals service standards.
    Child and Adult Care Food Program sponsors need the 
resources to focus on the important nutrition education support 
services that have now been pushed aside by the avalanche of 
paperwork generated by the means test. CACFP sponsoring 
organizations' per home administrative rates need to be 
increased to allow the program's tradition of excellent 
nutrition education to continue.
    The need for affordable quality child care is growing and 
the need for good nutritious meals and healthy eating habits 
have never been greater. Congress needs to make the necessary 
improvements so the number of children participating in the 
Child and Adult Care Food Program can once again grow to meet 
these needs.
    In conclusion, I would like to thank the committee for 
their attention to this important program and the Forum looks 
forward to working with you in any way it can. Thank you.
    The Chairman. Thank you very much, Mr. Hofstedt.
    [The prepared statement of Mr. Hofstedt can be found in the 
appendix on page 139.]
    The Chairman. Our final member of this panel is Mr. Don 
Wambles, who is President of the WIC Farmers Market 
Association. Mr. Wambles, welcome. You may proceed.

         STATEMENT OF DON WAMBLES, PRESIDENT, NATIONAL 
            ASSOCIATION OF FARMERS MARKET NUTRITION 
                 PROGRAMS, MONTGOMERY, ALABAMA

    Mr. Wambles. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to speak to you today. Our 
national association represents 37 States, Guam, Puerto Rico, 
and five Indian Tribal organizations that operate the WIC 
Farmers Market Nutrition Program, as well as 36 State agencies 
that operate the Seniors Farmers Market Nutrition Program.
    The Farmers Market Nutrition Programs meet two very 
important objectives. One, they provide fresh, locally grown 
fresh fruits and vegetables to low-income women, children, and 
seniors, and we do this by giving them coupons that they can 
spend only at local farmers' markets with the actual producers 
that grow those fruits and vegetables.
    Then, second, it provides additional income for those small 
fruit and vegetable growers, and in the down economic times 
that we have right now, this is extremely important for those 
small producers.
    Last year, we served more than 2.7 million WIC clients and 
seniors with these programs, allowing them to receive fresh, 
wholesome fresh fruits and vegetables, and approximately 14,500 
small farmers across America benefited from additional income 
through these programs.
    The Farmers Market Nutrition Program creates a direct link 
between production agriculture and thousands of low-income 
women and children. The Farmers Market Nutrition Program 
educates the WIC clients about the importance of fresh fruits 
and vegetables in their diets. It changes eating habits, and it 
increases sales to small farmers.
    Last year, through the WIC Farmers Market Nutrition Program 
alone, farmers received almost $22 million in coupon sales. We 
have not even added in the additional impact where they spend 
cash dollars whenever they come there. That is just through the 
coupon sales alone.
    The Farmers Market Nutrition Programs are the only programs 
that provide direct benefits to small farmers and low-income 
families with a minimal amount of effort. We deliver nutritious 
fruits and vegetables to needy women, children, and seniors, 
and additional income is provided to farmers with the added 
benefit of exposing young mothers to the stable family 
environment provided by small family farmers in visiting the 
farmers' markets.
    This program is more than just giving recipients $20 and 
turning them loose and allowing them to go spend it. We provide 
nutrition education. We also provide them with assistance in 
shopping at the farmers' market. We assist them in learning how 
to shop, what products to buy and teach them how to prepare 
that product once they get home. We have an education component 
built in with it.
    This is extremely different than buying something ready to 
eat and taking it home or stopping by somewhere and purchasing 
something and eating it. This effort of teaching them how to 
shop and how to prepare it takes time. It is not something that 
can be done quickly. For those of us that have the knowledge of 
how to do this, we must take the time and the energies that is 
necessary to teach those who do not know how, especially our 
young mothers that do not know, because they can become 
contributing portions of our society. The Farmers Market 
Nutrition Program is a win-win for all of society.
    The WIC Farmers Market Nutrition Program requires a 30 
percent State match on the part of the States to receive the 
Federal dollars associated with it. As State budgets have 
tightened, it has become increasingly more difficult to find 
the necessary dollars to provide those State match funds. I 
sincerely believe that States need to have a stake or provide 
part of the money associated with these programs, but during 
the current economic conditions, it is very tough for States to 
accomplish that. We have even had some States that have had 
very successful programs have to drop out of the program last 
year simply because they did not have State match moneys 
available to draw down the Federal funds.
    It is extremely hard to explain to a farmer why you had a 
program 1 year and you don't the next, but it is even more 
difficult to look into the face of a child and explain to that 
child, you got this program last year but we don't have it this 
year. There is nothing more heart wrenching than to see that.
    It is even more frustrating to us to work to establish a 
program, to build interest and enthusiasm in it, and then to 
see that program die because of State budget crisis.
    Therefore, our association is asking that you give serious 
consideration to changing the State match requirements to allow 
us to continue to operate this very important program. The 
State match requirement of 30 percent of the total Federal 
grant--we are having to match the total Federal grant at 30 
percent--has been and continues to be an obstacle to expanding 
the program or to growing the program within States or to 
growing the program and increasing it in additional States.
    We are asking that we only have to match the administrative 
portion of the Federal dollars, just like all other nutrition 
programs, not to match the food portion of the Federal dollars.
    Second, the Federal benefit per recipient has been capped 
at $20 since the inception of this program, and this is the 
only program that I know of that you can look at for a period 
of ten or 12 years that has not had an increase in the benefit 
level. Everything else that is associated with the program, the 
farmers' input cost and the cost of food, has gone up during 
this period of time; and yet, here we are, we are still capping 
the Federal benefit that we are giving these young mothers and 
children at $20 and we expect them to receive the same amount 
of food. It can't happen. We sincerely ask that you look 
seriously at increasing the Federal benefit level to a maximum 
of $30.
    It is extremely important that these programs continue to 
strengthen local markets. That is one of the goals that they 
were intended for. We also need the flexibility back at the 
States' level to address local situations where farmers' 
markets are neither abundant or available.
    While this hearing is focused on re-authorization of the 
WICFMNP, I would be remiss if I didn't speak real briefly about 
the Seniors Farmers Market Nutrition Program. It is a sister 
program to the WIC Farmers Market Nutrition Program. FNS has 
done a tremendous job of implementing this program in the two 
short years that it has been out. It is an example of the out-
of-the-box thinking that OMB advocates. The seniors' program 
has been so successful that it has far exceeded the $15 million 
allocated through the Farm bill. We had a little over $28 
million in requests from States this year, so there are a lot 
of programs that have gone unfunded.
    In closing, I would like to just share with you two 
experiences to maybe put a face on the Farmers Market Nutrition 
Programs. At one of our markets this year, I was there and I 
observed a young WIC mother making a purchase of fruits and 
vegetables with a little boy about three or 4 years old, wasn't 
much taller than this table, and whenever his mother made that 
purchase with those coupons, you could see the excitement on 
that child's face, almost to the extent that he couldn't have 
been any happier had Santa Claus been standing there. It was 
unreal.
    [Laughter.]
    Mr. Wambles. I could not imagine seeing what I was seeing 
in Montgomery, Alabama. When she handed him that basket of 
produce that she had just purchased, he just literally glowed 
and he looked up at his mama and he said, ``Mama, are we going 
to have something good to eat tonight?'' Those words just 
struck at my heart. I could not imagine that we had people, 
children right there at home, that had to even ask that 
question. This program is meeting a tremendous need.
    Finally, a similar situation, an elderly gentleman was at 
one of our markets. I was drawn to him because of the cap that 
he was wearing. On his cap, it said, ``I am a World War II 
Veteran.'' With the situation that is going on right now, I 
could not help but speak to him, and he told me that the 
seniors' program was extremely beneficial to him. He said, 
``Without the program, I wouldn't have moneys to come and shop 
at the farmers' market.''
    As we continued talking, the glow in his eyes as he told me 
about his military service and how proud he was to have served 
us, it saddened to me to think that he qualified for the 
program. His face and his words or what his service has 
provided you and me. He is one example of the many veterans 
being served by the seniors' program.
    In summary, the Farmers Market Nutrition Programs are 
providing at-risk children, young mothers, seniors, and small 
family farmers benefits through the WIC and Seniors Farmers 
Market Nutrition Programs. Lifestyles are changed. Bonds are 
formed between recipients and small farmers every day. Small 
fruit and vegetable growers receive direct income in these 
difficult economic times.
    Mr. Chairman, our association stands ready to work with you 
and Members of Congress and USDA to continue to strengthen 
these programs, and I would be happy to answer any questions.
    The Chairman. Thank you very much, Mr. Wambles, for your 
testimony and your participation in this panel.
    [The prepared statement of Mr. Wambles can be found in the 
appendix on page 146.]
    The Chairman. Senator Lincoln, you have been here a while 
today and haven't had a chance to say a word. I feel bad about 
that. You may proceed making a statement or ask questions, as 
you wish.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. I will ask for 
unanimous consent, if I may, to put my entire statement in the 
record. I don't want to take too much time from anybody.
    I first want to start by thanking the chairman for his 
leadership in this issue and his willingness to--not only his 
patience today but his willingness to devote the kind of time 
from this committee to an issue that is so very important. I 
appreciate his very strong commitment to nutrition, both he and 
the ranking member provide us in this committee. I do want to 
thank each and every one of you all for being here today. You 
are somewhat preaching to the choir with me, as a matter of 
fact.
    I just want to mention a couple of things. I, too, as a 
mother of school-age children recognize the importance of what 
we can do in not just providing food to individuals, to 
children, to the elderly, but the lifestyle changes we can 
provide and the other ways that we can really affect people's 
lives.
    I was late today, Mr. Chairman, because I was in the 
Finance Committee at a hearing on Medicare, so I went from the 
elderly to the young people in many ways when you talk about 
nutrition programs. One of the things we talked about was 
coordination of care and looking at nutrition as an enormous 
part of our elderly people's lives, and we teach a lot of those 
lessons in these types of programs when we are dealing with 
children, both in providing them good choices, but in some 
instances, just simply providing them the kind of nutrition and 
means that they need on a daily basis.
    Two years ago, the U.S. Department of Agriculture Food 
Assistance and Nutrition Research Program issued a report that 
ranked Arkansas as one of the bottom five States for food 
security and hunger. Now, Mr. Chairman, jicama has made its way 
to Arkansas and Mississippi, but not in great numbers.
    [Laughter.]
    Senator Lincoln. For States like ours, and particularly 
mine in Arkansas, with the sizable agricultural sector that we 
have, almost 5 percent of our households in Arkansas do not 
always have adequate food. That is really inexcusable in this 
day and age, at a time when we are the greatest force, the 
greatest nation on this globe, to think that there are hungry 
children.
    I have an older sister that taught in the public schools in 
Arkansas, and when she quit, I asked her, I said, what made you 
quit teaching? She said, ``Well, there were several things,'' 
she said, ``but unfortunately, it was bus duty.'' I said, bus 
duty? That couldn't have been that hard. She said, ``Well, once 
a month, I was at bus duty and,'' she said, ``it was 
incredible.'' She said, ``There were kids that were clinging to 
my leg that didn't want to go home. They were hungry, they were 
sick, and they were frightened.''
    Well, we can't do everything about all of those problems, 
but we can provide children a nutritious meal at least once, if 
not twice, a day in our school systems, and it is absolutely 
critical in that overall component of trying to do more on 
behalf of our children, who are truly the future leaders of 
this great country.
    The nutrition programs are key in eliminating hunger and 
ensuring the health and well-being of our young people. 
Unfortunately, under current economic circumstances, we are 
finding that people who never dreamed they would be having to 
access these programs are looking to these programs. We want to 
make the process as seamless. We don't want them to be a 
process of lots of paperwork and embarrassment and humiliation 
in order to get parents, to allow them to get their children 
into these programs or to go to farmers' markets. We don't want 
these programs to be something that are a challenge or that are 
difficult for them to access. If they need them, we want to 
provide them, and there is great opportunity for us to be able 
to do that. There are so many programs that have been very, 
very productive.
    The immediately and long-term benefits of the WIC program 
has proven it to be one of our most successful. There is no 
doubt that we can improve on that and we should be looking on 
ways to do that.
    I am amazed that stolen formula is the most--the largest, 
is that right, Ms. Curry?
    Ms. Curry. One of the ten largest.
    Senator Lincoln. One of ten. That is amazing to me. With 
twin boys, I can remember buying formula in bulk, Mr. Chairman.
    [Laughter.]
    Senator Lincoln. It was amazing. To think of those 
individuals who find themselves in a circumstance where they 
can't provide, it is unbelievable.
    We have seen, particularly since its inception, the Child 
and Adult Care Food Program, over the last decade, 
participation in this particular program has risen 73 percent 
in Arkansas.
    Clearly, there is a need. The WIC Farmers Market and the 
WIC program, summer feeding program, some of our adult feeding 
programs, all of these are serving a critical need in this 
nation and it is so important.
    The last thing I will address is that many of our 
colleagues sat around this very table when we discussed the 
Farm bill and we talked about the programs. We talked about 
authorization and implementation. We addressed the need to 
provide appropriate levels for funding for these programs, and 
I just want to take this opportunity to echo that concern, as 
well. We need to make sure that--at least I hope we won't leave 
the committee without saying that we must preserve the 
investment in their entirety in the budget that we approach as 
we go through this budget process because if there is anything 
that is elemental, it is making sure that people have at least 
something to eat, even if it is not enough, and that is so true 
in this time of economic recession.
    Mr. Chairman, thank you for addressing what is a very 
important issue today among our families, our schools, our 
elderly, and I hope that our distinguished witnesses here 
today, both in this panel and in others, will continue to work 
with us on the committee, because we do have our work cut out 
for us and we have a lot to do. Thank you.
    The Chairman. Thank you, Senator.
    The Chairman. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I will be brief 
because, as you say, the hour is getting late and the M&M 
peanuts down in the vending machine are out by about one 
o'clock, so I have to get down there.
    [Laughter.]
    Senator Dayton. I would like to go back, Mr. Hofstedt, to 
your point about putting another layer of reporting requirement 
on providers and on parents and families. I don't understand, 
Mr. Chairman. I have these credit cards. I can go anywhere, as 
we all can, in the country, thousands and thousands of vendors 
and I don't have to fill out a form every time. If I did, I 
wouldn't be a consumer. Electronically, it can establish my 
identity and qualifications. It can establish a limit of 
expenditure and the like. Even at the government level, I have 
a driver's license. I can go and it establishes my identity and 
my driving record, unfortunately, but anywhere in Minnesota and 
in many other States.
    I don't see why, and I hope, Mr. Chairman, if we are adding 
the desire to be fiscally responsible, as we should, that we 
are also responsible to the spirit and the intent of the 
programs and that we provide--we take on and instruct the USDA 
to take on, at least the Federal Government to take on, if we 
want these additional safeguards, if we want the information, 
if we want to set limits and the like, that we take it on 
ourselves to do that and to do so in a way that brings the 
eligibility for all these different programs ideally under one 
roof and one card so that we put that on ourselves rather than 
on the providers and on the recipients. I just think it is 
getting way out of hand.
    Mr. Hofstedt, you said this reporting requirement has 
really reduced the participation in these programs, so we are 
contradicting our own intentions by doing so.
    Mr. Hofstedt. Absolutely. For providers and parents that 
have to deal with all the income eligibility forms, and 
especially if you are talking for a provider who is getting 14 
cents for a snack, they just say, forget about it, because what 
can you serve for 14 cents? They are required to serve a 
nutritious meal. What is happening is they are dropping out of 
the program and going back to serving Kool-Aid. It is cheaper.
    Senator Dayton. That is just pointless. Mr. Chairman, I 
just had the opportunity and I brought them into the hearing 
room to witness, I have three experts on the school lunch 
program in Minnesota, three high school students from 
Minnesota, and I asked them about the availability of fresh 
fruits and vegetables and they said, well, sometimes they have 
a salad bar, but the salad is iceberg lettuce and usually 
nothing else and it is often turning brown, which is not 
exactly desirable. Then one said that they wish they had 
applesauce every day, but they don't. I said, well, do they 
ever buy just fresh apples? They said, well, sometimes, but 
those are just the red ones and they are bitter.
    You would think we could at least--I don't think we even 
have to have master chefs in these programs, but we ought to be 
able to provide fresh produce that is edible and appealing. I 
mean, it just seems that some of the basics here, Mr. Chairman, 
and I agree, we want to be nutritious, we have to serve a lot, 
a lot of students, but there are ways in which we can keep this 
simple and yet make it possible for kids to actually enjoy 
things we want them to eat. Otherwise, they are going to go 
find the M&Ms.
    I might say that we as adults, as someone said earlier, we 
don't model necessarily the behavior we want our children to 
follow. If anybody wants to comment on that, I would welcome 
it.
    The Chairman. Thank you very much, Senator.
    Let me thank all of you for being here and members of this 
panel and providing us your observations and thoughts about how 
we can improve these programs and some of the essential things 
that we should consider as we proceed to reauthorize the Child 
Nutrition Act.
    I was interested in Ms. Leppert's comment in the statement 
that WIC vendors should be food stamp authorized, as well. 
Would this be good for participants, or what is the reason for 
that suggestion?
    Ms. Leppert. The reason for that suggestion is in terms of 
program integrity. It is just easier that they are food stamp 
authorized. The food stamp program has the better ability to 
check on the programs than WIC does.
    The Chairman. Ms. Curry, you raised a troubling point about 
infant formula theft and the relabeling and redating issue in 
the food stores. It occurred to me, what do we need to do about 
that in the re-authorization bill? Is there a step we can take 
or something that we could do in the legislation that would 
help improve that situation?
    Ms. Curry. The grocers who participate in the WIC program 
feel that the Department of Agriculture should require the 
State to come up with a contractual agreement with their 
distributors who make the infant formula and possibly even 
develop an audit trail from manufacturers to retailers so that 
infant formula could only be purchased from authorized 
distributors that would be designated by the State. When we 
have the ``black market'' infant formula, it ends up in places 
where there is absolutely no way of knowing where it came from, 
what the expiration date is , or even if the product is 
actually what it says it is. The Department could come up with 
a more stringent definition for authorized distributors. 
Formula could only be purchased from authorized distributors.
    The Chairman. That is a very troubling situation. I know 
counterfeiting of not only food stuffs but drugs, things that 
are over-the-counter drugs, we had an instance where Senator 
Kohl, who is a member of our Appropriations Subcommittee on 
Agriculture, and we have worked closely together on some of 
these issues, we had representatives from the Food and Drug 
Administration and HHS giving us a presentation on how 
widespread counterfeiting is in our stores and retail 
establishments these days, and I am sure your industry is very 
aware of this, as well, so I appreciate your bringing that to 
our attention and reminding us that we can play a role in 
helping to deal with that.
    Ms. Leppert. If I may make a comment, WIC is also very 
concerned about counterfeiting of formula, and anything that 
can be done to prevent that counterfeiting and any time that we 
could work with FMI to come up with a rule or regulation that 
would help prevent that, we would be in favor of.
    The Chairman. Thank you. Ms. Caplan, we appreciate your 
being here and the basket you brought along. I hope you are 
going to leave that.
    [Laughter.]
    Ms. Caplan. If you don't ask me any questions.
    [Laughter.]
    The Chairman. You point out something that was interesting 
to me. In your testimony, you state that our commodity 
distribution program sometimes looks like a free-for-all among 
commodity groups to fight for sales, et cetera. I was thinking, 
this week, we had the soybean farmers of America were up here, 
the American Soybean Association, and one of the things they 
were pointing out was the fact that a lot of emphasis is being 
placed on soy products now and how these are nutritionally 
beneficial and, in some cases, more healthy as choices for food 
stuffs than some of our traditional products are.
    You don't want to keep or prevent the distribution of some 
of these food stuffs even though they are still not as widely 
used or as known if they are truly good. They are not all bad 
just because they are distributed as choices by the Department 
of Agriculture. Would you agree with that, or how do we let 
some of these products get exposed to a potential user group?
    Ms. Caplan. Well, what was meant by that in my testimony 
was that there are some organizations that have huge marketing 
budgets and huge lobbying budgets, as I understand it, that 
have incredible influence here, and consequently, sometimes 
their influence is felt more strongly than those of us, maybe 
fresh soybean, like tofu and vegetarian products or fresh 
fruits and vegetables that don't have huge marketing and 
lobbying budgets and can't be as influential. That is what was 
meant by it.
    The opportunity that could be given to other foods, which I 
was looking at the exotic produce. The kids were a lot more 
interested in trying Asian pears than they would be those red 
mealy apples that Senator Dayton was talking about because they 
were given a choice of something that probably their parents 
had never tried and they may never have tried at home. It would 
be wonderful if this committee would find a way to give the 
opportunity for different foods that are fairly priced to be 
included in these programs.
    The Chairman. Mr. Hofstedt, you mentioned for-profit child 
care centers and their difficulty of participating in some of 
these programs. I mentioned Senator Kohl's name a while ago. He 
and I included a provision in the agriculture appropriations 
bill that permitted reimbursement to these child care centers 
for providing food to the children under their care. Do you 
have a position on the value of a provision like that? Would 
you support that?
    Mr. Hofstedt. Absolutely. Our position with the Forum is 
very simple: Feed children. If we can get good food into kids, 
that is wonderful, and any way we can expand the program, that 
is fine.
    The Chairman. Mr. Wambles, you mentioned the difficulty of 
coming up with matching funds at the State level to permit the 
operation of the Farmers Market Program. I wonder if you know 
how many States have actually stopped participating in the 
program because of the matching fund requirement.
    Mr. Wambles. To my knowledge, we had one that had to drop 
out of the program last year, and I am not sure about the 2003. 
I do not think we have as many States in the program this year 
as we did last year.
    The Chairman. We ought to, as you do, encourage 
participation in that program and if we have the matching 
requirement set too high or if any amount is too high, we ought 
to take that into careful account as we go through the re-
authorization of this program.
    I appreciate very much everybody's attendance at the 
hearing today. We have had a good hearing. We have some 
excellent ideas to consider as we proceed to try to improve 
this program and make sure it reaches those who need 
assistance, government assistance to help meet dietary 
requirements and health requirements. We want a well-fed but 
well-nourished, at the same time, citizenry, and that Congress 
has demonstrated its willingness to take a lead in that.
    This building we are in is named for Richard Russell, who 
was given credit for the school lunch program. It was his 
legislation that began that program. There have been other 
leaders of Congress who have improved it and expanded it and 
made it better, and our committee is going to be committed to 
carrying on that tradition, and we appreciate your assistance 
in identifying ways we can make it better and do a better job.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 3, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8866.001

[GRAPHIC] [TIFF OMITTED] T8866.002

[GRAPHIC] [TIFF OMITTED] T8866.003

[GRAPHIC] [TIFF OMITTED] T8866.004

[GRAPHIC] [TIFF OMITTED] T8866.005

[GRAPHIC] [TIFF OMITTED] T8866.006

[GRAPHIC] [TIFF OMITTED] T8866.007

[GRAPHIC] [TIFF OMITTED] T8866.008

[GRAPHIC] [TIFF OMITTED] T8866.009

[GRAPHIC] [TIFF OMITTED] T8866.010

[GRAPHIC] [TIFF OMITTED] T8866.011

[GRAPHIC] [TIFF OMITTED] T8866.012

[GRAPHIC] [TIFF OMITTED] T8866.013

[GRAPHIC] [TIFF OMITTED] T8866.014

[GRAPHIC] [TIFF OMITTED] T8866.015

[GRAPHIC] [TIFF OMITTED] T8866.016

[GRAPHIC] [TIFF OMITTED] T8866.017

[GRAPHIC] [TIFF OMITTED] T8866.018

[GRAPHIC] [TIFF OMITTED] T8866.019

[GRAPHIC] [TIFF OMITTED] T8866.020

[GRAPHIC] [TIFF OMITTED] T8866.021

[GRAPHIC] [TIFF OMITTED] T8866.022

[GRAPHIC] [TIFF OMITTED] T8866.023

[GRAPHIC] [TIFF OMITTED] T8866.024

[GRAPHIC] [TIFF OMITTED] T8866.025

[GRAPHIC] [TIFF OMITTED] T8866.026

[GRAPHIC] [TIFF OMITTED] T8866.027

[GRAPHIC] [TIFF OMITTED] T8866.028

[GRAPHIC] [TIFF OMITTED] T8866.029

[GRAPHIC] [TIFF OMITTED] T8866.030

[GRAPHIC] [TIFF OMITTED] T8866.031

[GRAPHIC] [TIFF OMITTED] T8866.032

[GRAPHIC] [TIFF OMITTED] T8866.033

[GRAPHIC] [TIFF OMITTED] T8866.034

[GRAPHIC] [TIFF OMITTED] T8866.035

[GRAPHIC] [TIFF OMITTED] T8866.036

[GRAPHIC] [TIFF OMITTED] T8866.037

[GRAPHIC] [TIFF OMITTED] T8866.038

[GRAPHIC] [TIFF OMITTED] T8866.039

[GRAPHIC] [TIFF OMITTED] T8866.040

[GRAPHIC] [TIFF OMITTED] T8866.041

[GRAPHIC] [TIFF OMITTED] T8866.042

[GRAPHIC] [TIFF OMITTED] T8866.043

[GRAPHIC] [TIFF OMITTED] T8866.044

[GRAPHIC] [TIFF OMITTED] T8866.045

[GRAPHIC] [TIFF OMITTED] T8866.046

[GRAPHIC] [TIFF OMITTED] T8866.047

[GRAPHIC] [TIFF OMITTED] T8866.048

[GRAPHIC] [TIFF OMITTED] T8866.049

[GRAPHIC] [TIFF OMITTED] T8866.050

[GRAPHIC] [TIFF OMITTED] T8866.051

[GRAPHIC] [TIFF OMITTED] T8866.052

[GRAPHIC] [TIFF OMITTED] T8866.053

[GRAPHIC] [TIFF OMITTED] T8866.054

[GRAPHIC] [TIFF OMITTED] T8866.055

[GRAPHIC] [TIFF OMITTED] T8866.056

[GRAPHIC] [TIFF OMITTED] T8866.057

[GRAPHIC] [TIFF OMITTED] T8866.058

[GRAPHIC] [TIFF OMITTED] T8866.059

[GRAPHIC] [TIFF OMITTED] T8866.060

[GRAPHIC] [TIFF OMITTED] T8866.061

[GRAPHIC] [TIFF OMITTED] T8866.062

[GRAPHIC] [TIFF OMITTED] T8866.063

[GRAPHIC] [TIFF OMITTED] T8866.064

[GRAPHIC] [TIFF OMITTED] T8866.065

[GRAPHIC] [TIFF OMITTED] T8866.066

[GRAPHIC] [TIFF OMITTED] T8866.067

[GRAPHIC] [TIFF OMITTED] T8866.068

[GRAPHIC] [TIFF OMITTED] T8866.069

[GRAPHIC] [TIFF OMITTED] T8866.070

[GRAPHIC] [TIFF OMITTED] T8866.071

[GRAPHIC] [TIFF OMITTED] T8866.072

[GRAPHIC] [TIFF OMITTED] T8866.073

[GRAPHIC] [TIFF OMITTED] T8866.074

[GRAPHIC] [TIFF OMITTED] T8866.075

[GRAPHIC] [TIFF OMITTED] T8866.076

[GRAPHIC] [TIFF OMITTED] T8866.077

[GRAPHIC] [TIFF OMITTED] T8866.078

[GRAPHIC] [TIFF OMITTED] T8866.079

[GRAPHIC] [TIFF OMITTED] T8866.080

[GRAPHIC] [TIFF OMITTED] T8866.081

[GRAPHIC] [TIFF OMITTED] T8866.082

[GRAPHIC] [TIFF OMITTED] T8866.083

[GRAPHIC] [TIFF OMITTED] T8866.084

[GRAPHIC] [TIFF OMITTED] T8866.085

[GRAPHIC] [TIFF OMITTED] T8866.086

[GRAPHIC] [TIFF OMITTED] T8866.087

[GRAPHIC] [TIFF OMITTED] T8866.088

[GRAPHIC] [TIFF OMITTED] T8866.089

[GRAPHIC] [TIFF OMITTED] T8866.090

[GRAPHIC] [TIFF OMITTED] T8866.091

[GRAPHIC] [TIFF OMITTED] T8866.092

[GRAPHIC] [TIFF OMITTED] T8866.093

[GRAPHIC] [TIFF OMITTED] T8866.094

[GRAPHIC] [TIFF OMITTED] T8866.095

[GRAPHIC] [TIFF OMITTED] T8866.096

[GRAPHIC] [TIFF OMITTED] T8866.097

[GRAPHIC] [TIFF OMITTED] T8866.098

[GRAPHIC] [TIFF OMITTED] T8866.099

[GRAPHIC] [TIFF OMITTED] T8866.100

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 3, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8866.101

[GRAPHIC] [TIFF OMITTED] T8866.102

[GRAPHIC] [TIFF OMITTED] T8866.103

[GRAPHIC] [TIFF OMITTED] T8866.104

[GRAPHIC] [TIFF OMITTED] T8866.105

[GRAPHIC] [TIFF OMITTED] T8866.106

[GRAPHIC] [TIFF OMITTED] T8866.107

[GRAPHIC] [TIFF OMITTED] T8866.108

[GRAPHIC] [TIFF OMITTED] T8866.109

[GRAPHIC] [TIFF OMITTED] T8866.110

[GRAPHIC] [TIFF OMITTED] T8866.111

[GRAPHIC] [TIFF OMITTED] T8866.112

[GRAPHIC] [TIFF OMITTED] T8866.113

[GRAPHIC] [TIFF OMITTED] T8866.114

[GRAPHIC] [TIFF OMITTED] T8866.115

[GRAPHIC] [TIFF OMITTED] T8866.116

[GRAPHIC] [TIFF OMITTED] T8866.117

[GRAPHIC] [TIFF OMITTED] T8866.118

[GRAPHIC] [TIFF OMITTED] T8866.119

[GRAPHIC] [TIFF OMITTED] T8866.120

[GRAPHIC] [TIFF OMITTED] T8866.121

[GRAPHIC] [TIFF OMITTED] T8866.122

[GRAPHIC] [TIFF OMITTED] T8866.123

[GRAPHIC] [TIFF OMITTED] T8866.124

[GRAPHIC] [TIFF OMITTED] T8866.125

[GRAPHIC] [TIFF OMITTED] T8866.126

[GRAPHIC] [TIFF OMITTED] T8866.127

[GRAPHIC] [TIFF OMITTED] T8866.128

[GRAPHIC] [TIFF OMITTED] T8866.129

[GRAPHIC] [TIFF OMITTED] T8866.130

[GRAPHIC] [TIFF OMITTED] T8866.131

[GRAPHIC] [TIFF OMITTED] T8866.132

[GRAPHIC] [TIFF OMITTED] T8866.133

[GRAPHIC] [TIFF OMITTED] T8866.134

[GRAPHIC] [TIFF OMITTED] T8866.135

[GRAPHIC] [TIFF OMITTED] T8866.136

[GRAPHIC] [TIFF OMITTED] T8866.137

[GRAPHIC] [TIFF OMITTED] T8866.138

[GRAPHIC] [TIFF OMITTED] T8866.139

[GRAPHIC] [TIFF OMITTED] T8866.140

[GRAPHIC] [TIFF OMITTED] T8866.141

[GRAPHIC] [TIFF OMITTED] T8866.142

[GRAPHIC] [TIFF OMITTED] T8866.143

[GRAPHIC] [TIFF OMITTED] T8866.144

[GRAPHIC] [TIFF OMITTED] T8866.145

[GRAPHIC] [TIFF OMITTED] T8866.146

[GRAPHIC] [TIFF OMITTED] T8866.147

[GRAPHIC] [TIFF OMITTED] T8866.148

[GRAPHIC] [TIFF OMITTED] T8866.149

[GRAPHIC] [TIFF OMITTED] T8866.150

[GRAPHIC] [TIFF OMITTED] T8866.151

[GRAPHIC] [TIFF OMITTED] T8866.152

[GRAPHIC] [TIFF OMITTED] T8866.153

[GRAPHIC] [TIFF OMITTED] T8866.154

[GRAPHIC] [TIFF OMITTED] T8866.155

[GRAPHIC] [TIFF OMITTED] T8866.156

[GRAPHIC] [TIFF OMITTED] T8866.157

[GRAPHIC] [TIFF OMITTED] T8866.158

[GRAPHIC] [TIFF OMITTED] T8866.159

[GRAPHIC] [TIFF OMITTED] T8866.160

[GRAPHIC] [TIFF OMITTED] T8866.161

[GRAPHIC] [TIFF OMITTED] T8866.162

[GRAPHIC] [TIFF OMITTED] T8866.163

[GRAPHIC] [TIFF OMITTED] T8866.164

[GRAPHIC] [TIFF OMITTED] T8866.165

[GRAPHIC] [TIFF OMITTED] T8866.166

[GRAPHIC] [TIFF OMITTED] T8866.167

[GRAPHIC] [TIFF OMITTED] T8866.168

[GRAPHIC] [TIFF OMITTED] T8866.169

[GRAPHIC] [TIFF OMITTED] T8866.170

[GRAPHIC] [TIFF OMITTED] T8866.171

[GRAPHIC] [TIFF OMITTED] T8866.172

[GRAPHIC] [TIFF OMITTED] T8866.173

[GRAPHIC] [TIFF OMITTED] T8866.174

[GRAPHIC] [TIFF OMITTED] T8866.175

[GRAPHIC] [TIFF OMITTED] T8866.176

[GRAPHIC] [TIFF OMITTED] T8866.177

[GRAPHIC] [TIFF OMITTED] T8866.178

[GRAPHIC] [TIFF OMITTED] T8866.179

[GRAPHIC] [TIFF OMITTED] T8866.180

[GRAPHIC] [TIFF OMITTED] T8866.181

[GRAPHIC] [TIFF OMITTED] T8866.182

[GRAPHIC] [TIFF OMITTED] T8866.183

[GRAPHIC] [TIFF OMITTED] T8866.184

[GRAPHIC] [TIFF OMITTED] T8866.185

[GRAPHIC] [TIFF OMITTED] T8866.186

[GRAPHIC] [TIFF OMITTED] T8866.187

[GRAPHIC] [TIFF OMITTED] T8866.188

[GRAPHIC] [TIFF OMITTED] T8866.189

[GRAPHIC] [TIFF OMITTED] T8866.190

[GRAPHIC] [TIFF OMITTED] T8866.191

[GRAPHIC] [TIFF OMITTED] T8866.192

[GRAPHIC] [TIFF OMITTED] T8866.193

[GRAPHIC] [TIFF OMITTED] T8866.194

      
=======================================================================


                          QUESTION AND ANSWER

                             April 3, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8866.195

[GRAPHIC] [TIFF OMITTED] T8866.196

[GRAPHIC] [TIFF OMITTED] T8866.197

[GRAPHIC] [TIFF OMITTED] T8866.198


</pre></body></html>
